<html>
<title> - HOW CAN THE FEDERAL GOVERNMENT SUPPORT LOCAL AND STATE INITIATIVES TO PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE AND WITNESS INTIMIDATION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 HOW CAN THE FEDERAL GOVERNMENT SUPPORT LOCAL AND STATE INITIATIVES TO 
  PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE AND 
                         WITNESS INTIMIDATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2005

                               __________

                           Serial No. 109-56

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-040                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 2, 2005......................................     1
Statement of:
    Johnson, Judge Kenneth, former associate judge, Baltimore 
      City Circuit Court; David Wright, president, Charles 
      Village Community Benefits District; and Ricky P., 
      resident, west Baltimore...................................    78
        Johnson, Judge Kenneth...................................    78
        P., Ricky................................................    99
        Wright, David............................................    93
    Pond, Floyd O., Assistant Director, Washington-Baltimore 
      HIDTA; Lieutenant Craig Bowers, Baltimore County Police 
      Department; and Patricia Jessamy, State attorney, city of 
      Baltimore..................................................    51
        Bowers, Lieutenant Craig.................................    53
        Jessamy, Patricia........................................    58
        Pond, Floyd O............................................    51
    Steele, Michael S., Lieutenant Governor, State of Maryland; 
      and Martin O'Malley, mayor, city of Baltimore..............    12
        O'Malley, Martin.........................................    21
        Steele, Michael S........................................    12
Letters, statements, etc., submitted for the record by:
    Bowers, Lieutenant Craig, Baltimore County Police Department, 
      prepared statement of......................................    55
    Jessamy, Patricia, State attorney, city of Baltimore, 
      prepared statement of......................................    63
    Johnson, Judge Kenneth, former associate judge, Baltimore 
      City Circuit Court, prepared statement of..................    82
    O'Malley, Martin, mayor, city of Baltimore, prepared 
      statement of...............................................    25
    P., Ricky, resident, west Baltimore, prepared statement of...   101
    Steele, Michael S., Lieutenant Governor, State of Maryland, 
      prepared statement of......................................    15
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Prepared statement of....................................     4
        Prepared statement of Mr. Carr and Ms. Cartwright........    38
    Wright, David, president, Charles Village Community Benefits 
      District, prepared statement of............................    96

 
 HOW CAN THE FEDERAL GOVERNMENT SUPPORT LOCAL AND STATE INITIATIVES TO 
  PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE AND 
                         WITNESS INTIMIDATION?

                              ----------                              


                          MONDAY, MAY 2, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Baltimore, MD.
    The subcommittee met, pursuant to notice, at 10:47 a.m., in 
the Ceremonial Moot Courtroom of the University of Maryland 
School of Law, Hon. Mark Souder (chairman of the subcommittee) 
presiding.
    Members present: Representatives Souder, Cummings, and 
Ruppersberger.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Malia Holst, clerk; and Tony Haywood, minority 
counsel.
    Mr. Souder. Good morning. It is a real pleasure to be in 
Baltimore again, here in the district of our distinguished 
ranking member, Mr. Cummings, and in Baltimore, also the home 
of one of our most active members, Mr. Ruppersberger. And we 
appreciate him coming here very much. Today, however, we are 
revisiting a very tragic and serious problem, namely the 
problem of protecting law-abiding citizens from the domestic 
terrorism of criminal intimidation.
    During the last Congress, Mr. Cummings and I held a hearing 
right here in Baltimore in response to the horrifying murder in 
2002 of the Dawson family. We are here again to consider how 
the Federal Government can best work with cities and State and 
local governments to support and protect brave individuals like 
the murdered Angela Dawson who are willing to stand up in their 
communities against drug dealing and drug violence.
    In Baltimore, the pain of drug abuse is especially felt. 
There were nearly 500 drug-induced or drug-related deaths in 
2001--approximately 10 percent of all deaths in the area. Drug 
dealers have taken over many parts of the city, making law-
abiding citizens virtual prisoners in their own homes. In the 
face of this threat, many citizens and families have stepped 
forward to try to take back their neighborhoods from the 
dealers and gangs, often at great personal risk.
    The Dawson family is the most poignant reminder. Angela 
Dawson lived in Baltimore with her husband, Carnell, and their 
five young children. In an effort to rid her street of drug 
dealers, she repeatedly called 911, reporting suspicious 
activity to the police. Her efforts came at a terrible price. 
In the early morning hours of October 16, 2002, the Dawson 
family's home was firebombed by a local drug dealer in 
retaliation. The bombing claimed the lives of Angela, Carnell, 
and all five of the Dawson children.
    More recently, in January of this year, the Harwood 
Community Association president Edna McAbier was the target of 
another firebombing for her involvement in reporting drug 
dealing. Ms. McAbier has since moved out of her home and five 
of the men suspected of the crime have been indicted by a 
Federal grand jury for witness tampering, conspiracy to commit 
witness tampering and the use of a firearm in the commission of 
the crime.
    Crimes of this nature are not confined to cities like 
Baltimore; they affect suburban and rural areas too. In January 
of this year, 10-year-old Katlyn Collman of Crothersville, IN, 
my home State, was abducted and killed. Her drowned body was 
found 5 days later in a nearby creek, her little hands tied 
tightly behind her back. This was a front-page story in the New 
York Times. And I ask unanimous consent to insert this into the 
record: ``Too late for Katie, Town Tackles Drug Scourge.'' 
Authorities believe Katie was murdered to prevent her from 
telling others about meth labs she saw in her neighborhood.
    These horrible crimes illustrate the dangers faced by 
honest citizens when they seek to improve their neighborhoods 
and the lives of their families. These crimes, however, have 
also led local communities and Federal authorities to find ways 
to protect people like the Dawsons from retaliation by drug 
criminals and other criminals as well. The Federal Drug Czar, 
John Walters, and other officials and Members of Congress have 
also stepped forward to find ways to assist State and local 
authorities in this effort.
    In response to the Dawson murders, Mr. Cummings introduced 
H.R. 812, the Dawson Family Community Protection Act. I 
strongly support this bill as a cosponsor. It directs at least 
$1 million in funds to the High Intensity Drug Trafficking 
Areas [HIDTA] program to be spent on neighborhood safety 
measures, including the protection of potential witnesses and 
the operation of a toll-free telephone hotline for use by the 
public to provide information about illegal drug-related 
activities. During the last Congress, the House passed this 
bill as part of the legislative reauthorization of the Office 
of National Drug Control Policy. Regrettably, that bill did not 
pass the Senate, but we are hopeful that it can be passed this 
year.
    We are holding this hearing to continue our broad-ranging 
and open discussion of these pressing issues and potential 
solutions. We are pleased to be joined today by the Lieutenant 
Governor of Maryland, Mr. Michael Steele, and the mayor of 
Baltimore, Mr. Martin O'Malley, who have taken time out of 
their very busy schedules to discuss this problem. We also 
welcome Mr. Floyd O. Pond, Assistant Director of the 
Washington-Baltimore High Intensity Drug Trafficking Area, 
administered by ONDCP.
    It is equally important for us to talk to State and local 
law enforcement agencies that do so much to combat drug 
trafficking on the streets. We are therefore pleased to be 
joined by Lieutenant Craig Bowers from the Baltimore County 
Police Department, as well as Ms. Patricia Jessamy, State 
attorney for the city of Baltimore.
    Finally, we always need to hear from private and faith-
based organizations that dedicate themselves to educating young 
people about the dangers of drug abuse and providing treatment 
to those burdened by drug addiction. We welcome Judge Kenneth 
Johnson, former associate judge, Baltimore City Circuit Court; 
Mr. David Wright, president of the Charles Village Community 
Benefits District, and Mr. Ricky P., a resident of West 
Baltimore. We thank everyone for taking the time to join us 
today, and we are looking forward to your testimony. I would 
like to yield to the distinguished ranking member, Mr. 
Cummings.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.001
    
    [GRAPHIC] [TIFF OMITTED] T3040.002
    
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
again welcome you to Baltimore. I wanted to thank you and your 
staff for your cooperation in convening today's important 
hearing.
    Narco-terrorism is a plague upon our society. With 
increasing frequency, the drug traffickers are now targeting 
anyone who might interfere with their deadly trade. And, Mr. 
Chairman, I am so glad that you raised the issue of little 
Katie Collman. I noticed it is the February 10 issue of the New 
York Times that you are referring to.
    But this just goes to show this is not--a lot of people 
look at these problems and they think that they are just urban 
problems, but they are not. And I have read the Lieutenant 
Governor's testimony where he outlines this is a problem that 
is taking place in almost every single county in our State. 
That is why today's examination of how the Federal Government 
can better support State and local efforts to protect the 
public against witness intimidation and retaliation is so very, 
very important.
    Mr. Chairman, this is your third trip to Baltimore as 
chairman of the House, Government Reform Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources. As the 
subcommittee's ranking minority member, I sincerely appreciate 
the interest you have shown in working to address issues of 
mutual and critical concern on a bipartisan basis.
    Let me also express my thanks to the University of 
Baltimore School of Law for providing the venue for this very, 
very important hearing. We appreciate your cooperation and we 
appreciate your support.
    Last, but certainly not least, I want to extend my 
gratitude and a very warm welcome to all of our witnesses. I 
sincerely appreciate their willingness to participate in 
today's hearing. Several of today's witnesses have endured two 
postponements, and I deeply appreciate their bearing with us.
    Appearing before us today will be our Lieutenant Governor, 
the Honorable Michael Steele; the Honorable Martin O'Malley, 
our mayor of the city of Baltimore; the Assistant Director of 
the Washington Baltimore HIDTA program, Mr. Floyd Pond; the 
Honorable Patricia Jessamy, State's attorney for Baltimore 
City, who has put this at the very top of her priority list; 
Lieutenant Craig Bowers of the Baltimore County Police 
Department; the Honorable Kenneth Johnson, the former associate 
judge of the Baltimore City Circuit Court--and I might add, Mr. 
Chairman, the person who gave me my first job out of law 
school--and Mr. David Wright, president of the Charles Village 
Benefits District; and a community leader from west Baltimore, 
whom we will call, for security reasons, Ricky P.
    All of our witnesses have important perspectives to offer. 
They deserve great credit for their efforts to address and to 
overcome the interrelated problems that we will be examining 
today: drug abuse and addiction, drug-related crimes and 
violence, and the increasing obstruction of justice through 
threats, intimidation, and violent retaliation against 
witnesses.
    I should note for the record that because of the 
postponements I mentioned, we are missing three valuable 
witnesses who would have testified and had planned to on March 
1 and April 12. Reverend Iris Tucker is unable to appear today, 
as are Baltimore City Police Commissioner Leonard Hamm and 
Assistant U.S. attorney for the District of Columbia, Heather 
Cartwright. She is with a Victim-Witness Services Unit that 
serves the D.C. Superior Court, the U.S. District Court for the 
District of Columbia. I regret that Reverend Tucker, Mr. Hamm, 
and Ms. Cartwright were unable to appear today, but I 
appreciate their previous commitments and their willingness to 
provide testimony. And with unanimous consent, Mr. Chairman, I 
request that their previously prepared statements be included 
as a part of the record.
    Mr. Souder. No objection.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Chairman, the subject that we have come here today to discuss 
is a grim one, a challenge that we have both concluded 
justifies a more expansive Federal role. The problem of witness 
intimidation in Baltimore and many other cities around the 
country has become acute. We all have a moral duty to search 
for and achieve a more effective response. A system of law and 
order is essential to the maintenance of a free democratic 
society.
    Any action that undermines the integrity and the 
reliability of a criminal justice system necessarily undermines 
the freedoms, life, and liberty that our Constitutional system 
of government is designed to protect. The effective operation 
of a criminal justice system in turn requires the voluntary 
cooperation of witnesses who can offer the evidence that can 
remove dangerous criminals from our streets. Without this 
cooperation, the most fundamental laws of the people cannot be 
enforced. And the force of a law as a deterrent to crime simply 
erodes.
    Over the past few years we have seen an escalation in 
threats and violence directed against people who cooperate with 
the authorities. You mentioned the tragic Austin murder of the 
Dawson family in October 2002 and the firebombing this January 
of a home of Harwood Community Association president, Edna 
McAbier, two dramatic examples of the many instances of 
retaliation against witnesses who reported drug-dealing 
activity to the police.
    The surfacing of a now-infamous ``stop snitching'' DVD in 
which NBA player and Baltimore native Carmelo Anthony appears 
is a further indication of how brazen local drug gangs have 
become in their attempt to instill fear in the hearts of our 
entire community. Mr. Chairman, just this weekend, news reports 
all over our television stations talked about how young people 
are now buying tee-shirts and jerseys that has the ``stop 
snitching'' on it, and it has become a fad. Little do they know 
that by walking around with those jerseys, they merely help to 
send the message, be it innocently or not, of those who want to 
stop people from testifying.
    These are just the most flagrant examples of widespread and 
ongoing efforts to obstruct justice through fear, intimidation, 
and yes, murder, both here and Baltimore City and throughout 
this entire country. Every day in neighborhoods and even 
courtrooms around the country, criminals and their accomplices 
send menacing signals to would-be witnesses and their families.
    Mr. Chairman, you will hear testimony perhaps from Ms. 
Jessamy today about how people will sit in courtrooms with all 
kinds of devices, and as witnesses testify, send messages to 
their friends letting them know that certain people had just 
testified and therefore putting those people's lives in danger. 
Sometimes the messages are contained subtly through body 
language or cryptic words. Sometimes it is delivered bluntly to 
express verbal threats or physical assault. And I think the 
Lieutenant Governor will talk about that a bit.
    The content of these messages is the same, do not cooperate 
with legal or authorities or else. Unfortunately, all too 
often, this intimidation is having an effect. In January of 
this year, Baltimore City's State's attorney, Patricia Jessamy 
testified before a Maryland State Senate Committee about a 
culture of intimidation that has subpoenaed her office's 
efforts to secure convictions in criminal cases, and at times 
even to bring these cases to trial in the first place. And I 
quote her, ``At least 25 percent of non-fatal shooting cases 
are dismissed due to witness intimidation. And most murder 
cases are affected by witness intimidation at the same level.''
    Yes, Mr. Chairman, we both know that this serious challenge 
to our system of justice is not confined here just in 
Baltimore. And as I mentioned a little bit earlier, in Indiana, 
Ms. Collman, who suffered a very tragic death simply because 
she observed what appeared to be drug activity. With Ms. 
Collman and the tragic murders of the Dawson family and the 
recent Baltimore firebombing that I mentioned a few moments 
ago, what they are, Mr. Chairman, they are acts of terror.
    Yet at a time when we are investing millions of dollars in 
U.S. foreign aid to train law enforcement officers and judges 
in countries like Afghanistan, Colombia, and Iraq, the Federal 
Government provides virtually no support for programs to 
provide assistance and protection to witnesses in State cases 
here at home. We must become just as serious about fighting 
narco-terrorism here at home as we are in foreign lands.
    We already have a solution that would work. In the Federal 
system, the witness security program, operated by U.S. Marshal 
Service, has proved to be an effective tool for U.S. attorneys 
claiming a 100-percent safety record for witnesses enrolled in 
the program and an 89-percent conviction rate in cases 
involving the cooperation of these witnesses.
    In contrast, however, State and local law enforcement 
authorities have relatively small witness protection budgets. 
Many, if not most, jurisdictions must choose between spending 
limited funds to protect witnesses or to investigate crimes. 
This is a choice that they should not have to make. That is 
why, in my role as Representative in the National Legislature, 
I am obliged to ask this very pointed question: what role must 
a Federal Government play in helping States and localities to 
overcome or eliminate the obstacle that witness intimidation 
presents to prosecutors, as well as the chilling impact of that 
intimidation upon the everyday lives of our citizens?
    As you know, Mr. Chairman, I have introduced two bills that 
would be important first steps in better addressing these 
intertwined problems of drug-related violence and witness 
intimidation. Mr. Chairman, I am very pleased that you have 
agreed to cosponsor these bills.
    The Dawson Family Community Protection Act will require 
that at least $5 million in Federal funding from the Federal 
High Intensity Drug Trafficking Areas Program must be devoted 
to initiatives aimed at improving public safety and encouraging 
cooperation with law enforcement in areas severely affected by 
drug-related violence. This would include efforts like 
Baltimore Targeting Initiative, a carefully tailored anti-drug 
campaign that was undertaken by the Baltimore City Police 
Department with additional funding from the HIDTA program in 
response to the Dawson tragedy.
    Second, the Witness Security and Protection Act will 
establish a short-term State witness protection program within 
a U.S. Marshal Service to provide protection for witnesses in 
State and local trials that involve homicide, a serious, 
violent felony offense, or a serious drug offense. The bill 
would provide grants that district attorneys' offices could use 
to pay the cost of providing witness protection themselves, or 
to pay the cost of enrolling witnesses in a State short-term 
witness protection program that would be operated by the 
Marshal Service.
    The war on drugs has become a real war. It is a war that we 
can win, but we must do far more at the Federal level to 
support the brave Americans who are on the front lines. As we 
consider the expanded Federal response that is necessary to 
successfully address the intersecting problems of drug-related 
violence and witness intimidation, it is essential that we gain 
the insights and advice of the citizens of the community, at 
State levels, whose efforts we intend to amplify and to 
reinforce.
    And I thank Mr. Ruppersberger today who has worked so hard, 
not only as a part of our subcommittee, but also in our 
community here in Baltimore and the greater Baltimore area to 
address this problem for many, many years.
    Today's hearing offers an important opportunity to do all 
that we can do to make a difference. Thank you, again, Mr. 
Chairman, for providing this forum. I look forward to the 
testimony and the discussion and yield back the balance of my 
time.
    Mr. Souder. That was really disturbing to hear about people 
campaigning against people who give us information. After the 
Columbine school massacre, in the Education Committee we held 
several hearings where we had students in, teachers in, and 
found that the only way you are really going to stop student 
violence is if the students themselves turn people in and work 
with each other to try to do that. Otherwise, we have to have 
police officers all over the schools. I mean, the alternative 
to people coming forth themselves is not pleasant.
    And second, it is the same thing as Mr. Ruppersberger knows 
on intelligence that we deal with all the time and how we are 
going to break the intelligence groups. What about if every 
community of Arab or Asian or any group where it is close-knit, 
if people inside that community don't tell us who the 
terrorists are, we are helpless, because I don't know who is 
new to the community. It is groups inside the community. We 
don't know what is going on in a school and what is going on in 
a neighborhood many times from outside. It requires people 
inside who care about safety to do that.
    I mean, this is a really disturbing trend that you talked 
about on the street, because without people willing to come 
forward, we are helpless. Mr. Ruppersberger.
    Mr. Ruppersberger. Well, first, Mr. Chairman, I agree with 
you; that is why it is so important that we have students from 
Edmondson High School here today. You know, you are our future. 
You will have children, and it is important that we have a 
good, safe community for you and your children.
    First, Mr. Chairman, Chairman Souder, thank you for your 
leadership on the Subcommittee on Criminal Justice and Drug 
Policy. You run a tremendous committee, a bipartisan committee, 
and I know you are focused on this issue.
    And, Ranking Member Elijah Cummings, when I was former 
county executive, you were one of my Members of Congress in 
Baltimore County and the city, and you do a tremendous job in 
focusing on the issues in your community. And this is probably 
one of the most serious issues that we can deal with, and that 
is the issue of drugs. Over 80 percent of all of our violent 
crime is drug-related, and we must deal with this issue.
    I want to acknowledge the fact, Lieutenant Governor Steele, 
you are here today; State's attorney Patricia Jessamy; Mayor 
Martin O'Malley; and the other witnesses that we are looking 
forward to hearing what we can do from a Federal Government 
perspective to support local and State initiatives to protect 
your citizens against drug-related violence and witness 
intimidation.
    Now, witness intimidation cannot and should not be 
tolerated. It is a sad state of affairs when citizens have to 
choose between protecting their lives and their families' lives 
and performing their civic duty to report crimes. Many high 
profile incidents have taken place in the past few years, one 
of the most tragic being the murders of seven members of the 
Dawson family here in Baltimore City. And my prayers are with 
them, and I pray that a situation like that will never happen 
again.
    And that is why we are here today, to see how we, as 
Members of Congress, can help local jurisdictions prevent 
witness intimidation and protect those citizens whose lives may 
be in danger.
    As a former prosecutor, I have seen firsthand how violent 
and dangerous some of these criminals can be. And I know how 
hard it is as a prosecutor to get witnesses to come forward and 
testify. We had to use every available resource we could at the 
local, State, and Federal level to get witnesses into the 
courtroom. If we don't get witnesses into the courtroom, we 
cannot prosecute and convict those felons and put them in jail.
    Now, we must take these drug gangs head-on. We must not 
allow them to continue to use their intimidation tactics on 
witnesses. We must protect our citizens from these gangs. And 
this can be accomplished through coordination at the Federal, 
State, and local level, and also in the neighborhood level, 
citizens coming forward.
    Now, last month I signed on as cosponsor to Congressman 
Cummings' bill, H.R. 908, the Witness Security and Protection 
Act of 2005, and I thank you for that and for your leadership. 
Thank you, Mr. Chairman, for cosponsoring that bill. And that 
is a great start.
    This legislation seeks to help local jurisdictions protect 
witnesses and is a good step in the right direction along the 
path to the prevention of witness intimidation. Now, we all 
acknowledge that witness intimidation is a deadly problem that 
must be addressed, but we cannot solve the problem in a vacuum. 
Gangs to drug trafficking, violence, and witness intimidation 
must all be addressed as one, together. To that end, there are 
many current programs that seek to address the various parts of 
this problem--the Office of National Drug Control Policies High 
Intensity Drug Trafficking Area Program called HIDTA; the Byrne 
Justice Assistance Grant Program, Byrne Grants; the Office of 
Community-Oriented Policing Services, that is called the COPS 
program--are all programs that are funded with Federal dollars.
    Now, I am deeply concerned with the administration's 
current budget proposal to significantly reduce the funding of 
all of these programs. This is a problem. We must deal with 
this program, and we must give those individuals working on 
this problem the resources to do the job.
    I am also concerned that we are moving the HIDTA program 
from the Office of National Drug Control Policy to the Justice 
Department. This makes no sense. The Justice Department is a 
large organization, and they have enough problems dealing with 
the issues they are dealing with. We must refocus on that 
issue.
    As I have said many times before, I am always concerned 
about the issue of accountability and effectiveness. Whenever 
we give Federal money, we must hold those individuals receiving 
the money accountable for effectiveness and accountability. And 
we must make sure that we look at that.
    I think it is unwise to cut funding for programs that our 
State and local partners find to be useful tools in the fight 
against drugs, crime, and violence. We can only assume that 
with the drastic cuts proposed by the administration, the 
progress we are seeing will be unable to continue.
    Adequate funding for the affected programs is not the only 
solution, though. Changes to State law, such as the recently 
passed witness intimidation bill in the Maryland Legislature, 
and changes to criminal justice procedures are but two other 
ways to address the problem.
    But still there are more. We need to be creative. We need 
to think out of the box. We need to think and be one step ahead 
of these drug gangs. It is a very serious issue. We are here 
today to discuss and listen, and I hope that we will have 
productive dialog. I look forward to hearing from all of our 
witnesses today.
    Mr. Souder. I thank the gentleman. I ask unanimous consent 
that all Members have 5 legislative days to submit written 
statements and questions for the hearing record and any answers 
to written questions provided by the witnesses also be included 
in the record. Without objection, it is so ordered. I also ask 
unanimous consent that all exhibits, documents, and other 
materials referred to by Members may be included in the hearing 
record; that all Members be permitted to advise and extend 
their remarks. Without objection, it is so ordered.
    The first panel is composed of the distinguished Lieutenant 
Governor of Maryland, Mr. Steele. It is our standard practice 
to ask witnesses to testify under oath. You probably saw this 
on the baseball hearing if nothing else.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. Thank you very much for being patient this 
morning and coming today to testify. We look forward to your 
testimony.

STATEMENTS OF MICHAEL S. STEELE, LIEUTENANT GOVERNOR, STATE OF 
    MARYLAND; AND MARTIN O'MALLEY, MAYOR, CITY OF BALTIMORE

                 STATEMENT OF MICHAEL S. STEELE

    Mr. Steele. Thank you very much, Mr. Chairman. Good 
morning, Mr. Chairman, and certainly to Members of the 
subcommittee. I very much appreciate your being here. I 
appreciate the opportunity also to appear before the 
subcommittee today on behalf of our Governor, Robert L. 
Ehrlich, Jr., on the subject of witness intimidation. Governor 
Ehrlich extends certainly his personal and sincere thanks to 
the members of this subcommittee, many of whom are his former 
colleagues, for your willingness to engage in a meaningful 
discussion about the appropriate Federal, State, and local 
responses to the insidious problem of witness intimidation. 
Congressman Cummings, we particularly want to thank you for 
bringing this subcommittee here, your colleagues. You have made 
this an important battle cry, if you will, for this community. 
And we are very, very appreciative of that.
    Our administration also wishes to thank Baltimore City 
State's attorney, Patricia C. Jessamy, and Reverend Iris Tucker 
for partnering with us to champion the cause of witness 
intimidation legislative reform.
    In truth, the Governor and I would much prefer that today's 
field hearing take place someplace else, not here in Baltimore 
City, not in our State. But unfortunately, here we are because 
here we have witnessed 253 homicides which occurred in 2002, 
278 in 2004, and 73 so far this year. Indeed, the HBO cable 
drama ``The Wire'' is tantamount to a reality television 
program in certain parts of our cities.
    Too many individuals in this city live in a state of 
persistent fear, while brazen, violent criminals patrol the 
streets unafraid and intent on enforcing their own brand of 
justice. But as the members of this subcommittee are aware, the 
problem of witness intimidation is not simply a Baltimore City 
problem. It affects other parts of Maryland, like Prince 
George's County, my home county, as well as Washington, DC, and 
other communities across this Nation, as the chairman has 
already pointed out this morning.
    Thus, in a growing number of cases throughout Maryland, 
police and prosecutors are frustrated by their inability to 
investigate and prosecute cases because witnesses refuse to 
provide critical evidence or are unwilling to testify due to 
fear of violent reprisals.
    Deficiencies in Maryland's laws and evidentiary rules also 
contributed to this escalation in witness intimidation. 
Currently, the crime of witness intimidation in Maryland is a 
misdemeanor offense punishable by a maximum penalty of 5 years 
in prison. Of course, that is not commensurate with the 
severity of the crime. Indeed, if a criminal is able to silence 
a witness' testimony in the case of a violent felony crime, the 
same witness certainly would not testify in a prosecution where 
the maximum exposure of the defendant is a 5-year misdemeanor.
    Additionally, solicitation and conspiracy to commit witness 
intimidation are not even statutory crimes in Maryland. 
Further, there is also a huge payoff for the crime of witness 
intimidation--kill or otherwise silence a witness to your crime 
and his or her incriminating statement to police and to the 
grand jury is inadmissible at trial. This means that a criminal 
defendant who kills a witness silences that witness entirely.
    In response to repeated instances of witness intimidation 
and ineffective laws that threaten the underpinning of law 
enforcement and criminal justice in Maryland, the Ehrlich-
Steele Administration, joined by Baltimore City State's 
attorney, Pat C. Jessamy, launched an effort that began in 2003 
to toughen Maryland's witness intimidation laws. Reverend 
Tucker also rallied the faith community and advanced the cause 
of witness intimidation legislation, we think, a significant 
degree.
    I am thankful to report that Governor Ehrlich is prepared 
to sign his witness legislation into law this month. The 
legislation, as passed by the General Assembly of Maryland 
would permit one, prosecutors to seek a maximum penalty of 20 
years for individuals who solicit others, conspire with others, 
or commit witness intimidation if the underlying crime is a 
felonious drug violation or an enumerated crime of violence. 
And two, it would permit the admission of a hearsay statement, 
written or recorded, of a threatened or murdered witness 
against the defendant that attempted or did produce the absence 
of the witness in a felony drug or violent crime case.
    These legislative reforms are not a panacea to the problem 
of witness intimidation. We remain committed to continuing our 
examination of the criminal laws in Maryland to ensure that our 
State prosecutors and law enforcement officers and their 
colleagues have the necessary legal tools to make our 
communities safer.
    Some have criticized our administration for focusing too 
much on amending the law. Well, first, if you are able to 
dismantle criminal gangs, you move closer to eliminating the 
witness intimidation threat permanently. That is what a well-
crafted law would provide.
    Second, Governor Ehrlich and I also understand the need for 
witness relocation. The State's Victim and Witness Protection 
and Relocation Fund--more fully described in my written 
testimony--was created for that purpose--to protect the victims 
and witnesses of crime and their families by relocating them 
for their own protection.
    However, the problem the State has found with the State 
witness relocation funds and such problems generally is that 
few people want to participate. Who wants to leave their home, 
their community? They shouldn't have to. The criminals should 
be the ones forced out and locked up.
    The Ehrlich-Steele administration is helping in that regard 
not just with legislation, but also with funding to help 
prosecutors convict violent criminals. For example, the State 
of Maryland funds nine prosecutors in the homicide division of 
the Baltimore City State's Attorney's Office. It provides all 
of the funding for the city's Firearms Investigative Violence 
Enforcement Division, which prosecutes all gun prosecutions in 
Baltimore City.
    Our administration remains committed to working with our 
Federal partners, this subcommittee, other Members of Congress, 
along with local law enforcement to examine ways to strengthen 
the Federal, State, and local response to witness intimidation 
and to enact and provide meaningful tools to counteract and 
defeat these local, domestic terrorists.
    Mr. Chairman, I thank you for the opportunity to 
participate in these proceedings this morning. I look forward 
to any questions you may have.
    [The prepared statement of Mr. Steele follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.007
    
    [GRAPHIC] [TIFF OMITTED] T3040.008
    
    [GRAPHIC] [TIFF OMITTED] T3040.009
    
    [GRAPHIC] [TIFF OMITTED] T3040.010
    
    [GRAPHIC] [TIFF OMITTED] T3040.011
    
    Mr. Souder. Do you expect some kind of a challenge on the 
hearsay evidence and do you know other States or locations that 
have tried this? Because obviously, if you are going to be 
protecting witnesses, it is going to be hearsay if it is not 
proven in court yet----
    Mr. Steele. Right.
    Mr. Souder [continuing]. I mean, it is kind of a different 
legal----
    Mr. Steele. I don't think--I will ask our deputy counsel, 
Chris Kefalas, to join me because he can fill in any blanks 
that I may have. But I do not believe we anticipate any legal 
challenges. We have tried to--if I recall correctly--tried to 
hone this law very closely to the Federal standard and wanted 
to make sure that we address the due process concerns, the 
right-to-confront concerns that are raised by the Constitution. 
And so I think with that in mind, we, I think, crafted a fairly 
tight bill. I don't anticipate--unless----
    Mr. Kefalas. Sure.
    Mr. Steele [continuing]. Counsel, you----
    Mr. Souder. You will need to----
    Mr. Steele. Be sworn.
    Mr. Souder [continuing]. Be sworn in. And when you stand, 
spell your name for the record.
    Mr. Kefalas. Sure. It is Chrysobalantis Periyotes Kefalas, 
C-h-r-y-s-o-b-a-l-a-n-t-i-s P. K-e-f-a-l-a-s.
    Mr. Souder. Mayor O'Malley, could you maybe come up as 
well? I might as well swear you in at the same time, and then 
we will--after we finish we will take your testimony.
    Mr. O'Malley. Yes, sir.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative. We will take the answer to this 
question and then we will hear your opening statement. Thank 
you for joining us this morning.
    Mr. Kefalas. Mr. Chairman, with respect to the hearsay 
provision, it is our understanding that the hearsay exception, 
as Governor Ehrlich first proposed, is used in 18 other States 
now, including Pennsylvania, the District of Columbia, and in 
other areas that battle significant witness intimidation 
issues.
    Also, as an aside, in the Commonwealth of Massachusetts, 
there is a case currently proceeding to the Supreme Court of 
that State which will examine the Constitutionality of the 
hearsay exception under Massachusetts law.
    In addition, the Supreme Court last year rendered opinions 
in the Crawford v. Washington case, which found that the 
Federal Hearsay Exception was Constitutional. In the opinion, 
Justice Scalia went out of his way to say that ``The rule of 
forfeiture by wrongdoing, which we accept, extinguishes 
confrontation claims on essentially equitable grounds.'' That 
statement says if a forfeiture principle, which is the basic 
principle, which Rule 804(b)(6), the Federal Hearsay Exception 
was Constitutional, and the Court made that statement, and its 
opinion was it was not dealing with the confrontation clause, 
right of forfeiture by wrongdoing, specifically.
    Mr. Souder. Thank you. I thank the mayor again for coming 
to one of our committee hearings. I guess we bring good luck to 
the Orioles over here.
    Mr. O'Malley. We hope so.
    Mr. Souder. Thank you for joining us.

                  STATEMENT OF MARTIN O'MALLEY

    Mr. O'Malley. Mr. Chairman, members of the committee, thank 
you very much. Chairman Souder, Ranking Member Cummings, 
Congressman Ruppersberger, thank you coming to Baltimore today 
and giving me the opportunity to speak with you on this very, 
very important issue.
    Five years ago the city of Baltimore was actually dubbed by 
our FBI the most violent city in America. We have now, over 
these last 4 or 5 years, actually been leading America's cities 
in the rate of reduction of violent crime, achieving a 40-
percent reduction in overall violent crime thanks to courageous 
efforts not only of police officers, eight of whom have given 
their lives in the line of duty on our streets in these last 
few years, but also because of a lot of really courageous 
citizens, we have been able to reduce violent crime to its 
lowest level since the 1960's. But obviously, we still have a 
long way to go.
    And in order to continue on our path to making Baltimore 
the safest big city in America--which, Mr. Chairman, is our 
humble goal, to become the safest big city in the world--we are 
committed to a thorough, comprehensive action in the area of 
victim and witness intimidation. It is my firm belief of having 
been a prosecutor for a couple of years and a criminal defense 
attorney as well as being mayor of the city for these last 5 
years, that the most effective way to protect witnesses is with 
more effective prosecution, more effective law enforcement. 
Effective prosecution, effective law enforcement is really the 
only way to truly combat victim and witness intimidation.
    Now, many have identified increased sanctions as a 
deterrent to witness intimidation, and increased sanctions 
certainly do serve a vital component of eliminating 
intimidation in Baltimore. However, these additional measures 
have to be part of a comprehensive plan that solidifies safety 
and security for every victim and witness in every corner of 
our city and in every corner of our State.
    In addition to increased sanctions, we also have to examine 
our criminal justice systems, existing practices, our policies 
and procedures. We have to be prepared to reengineer the way 
that we work so that we can better coordinate and thereby 
better protect the courageous individuals who chose to partner 
with our police, prosecutors, and judges to permanently 
dismantle those individuals who would rob the rest of us of our 
freedoms and of our lives.
    We must work with urgency, we must share information, and 
we also need our Federal partners with us every step of the 
way, maintaining the important investments that have been made 
to make our country safer.
    Virtually all of the citizens that have been murdered in 
our city, and there were some 6,000 in the 1990's if you 
combine homicides and drug-related overdoses. It is 6,000 
Americans. That is twice the number that were killed on that 
awful day on September 11th; 6,000 in our city. And virtually 
all of them were American citizens, citizens of the United 
States of America.
    Our State law permits the release of violent felons on bail 
when they are rearrested, which gives them even greater 
opportunity and incentive to terrorize their communities while 
they are awaiting trial. Actively or by their mere presence 
back on the streets, in our communities, in our neighborhoods, 
those involved in the business of violence work to intimidate 
witnesses and commit further acts of violence while awaiting 
trial.
    Maryland must look to adopt a bail system that is more 
closely modeled after the very system that is currently used by 
our Federal Government where no bail status is given to 
defendants that meet one of the following conditions: a 
defendant charged with a crime of violence, a defendant charged 
with a drug offense carrying a maximum penalty of 10 years or 
more, a defendant charged with any felony that has two other 
convictions within the categories listed above, a defendant who 
may flee, a defendant who may obstruct justice or threaten, 
injure, or intimidate a prospective witness or juror. These are 
the rules that guide bail in the Federal system. We need to 
revamp those rules with regard to our State system.
    In Maryland, our city police department doesn't even have a 
direct data feed from the State's judicial information system, 
which could help prevent witness intimidation by enabling 
police to systematically establish links between witnesses, 
victims, and suspects in cases, to proactively move to make 
more arrests, and to place victims and witnesses in protective 
programs before and after the intimidation is allowed to occur.
    Currently, Mr. Chairman, citizens can go to our local 
government Web site to find out if a crime has been committed 
in their neighborhood. Shouldn't they also be able to find out 
if the criminal who committed that crime is in jail, made bail, 
or is still on the street? And when will that person face 
justice? There is no reason that it can't happen. It is simply 
a matter of will.
    Two years ago our State's attorney, Ms. Jessamy, who is 
here today, led the effort to establish a war room, which 
creates an information clearing house right up front in our 
system to target our city's worst offenders immediately at the 
point of booking. One problem, however, is that the 
information-sharing needed to make it work does not exist with 
some of our partner agencies. The parole and probation 
information, which is run by our State government, that is 
needed to target repeated offenders, is actually kept in 
notebooks still or in non-network computers. This high-tech war 
room relies on a system of paging parole and probation agents 
in hoping that they are available and that they are in 
possession of the right information about the right offender.
    Police officers and assistant State's attorneys can't find 
out, in many cases, whether the offender they are to lock up 
and charge is in compliance with their parole and probation 
conditions. Probation agents don't necessarily know Monday 
morning that an offender who was supposedly under their 
supervision was even arrested Saturday night because they are 
not networked. And because only the judge who puts an offender 
on probation can hear a violation case in our State, it can 
take weeks to address a violation, which should be an easy way 
to get criminals off our streets pending their trials.
    We understand that these are local issues, and we are 
committed to resolving them. However, there is, Mr. Chairman, 
an opportunity for this honorable committee to really help us 
on the Federal level. We ask that you please help us to insist 
upon a U.S. Department of Justice commitment to Federal gun 
prosecutions. It is not coincidental that in Baltimore our 
homicide rate has slightly increased over these last couple of 
years as the Federal Government commitment to gun prosecution 
in Maryland has dramatically declined.
    In 2000 there were 196 Federal gun indictments. In 2004, 
that number dropped to 97; 196 in 2000 has dropped to just 97 
in 2004. What message does that send to witnesses and to 
victims? The benefits of Federal gun prosecution include no 
bail to prevent defendants from re-offending and intimidating 
witnesses and victims, clear and substantial sentences served 
in full without parole, and incarceration in a Federal facility 
far away from criminal enterprises and networks in Baltimore.
    And No. 2, we ask that this committee please help us by 
demanding adequate Federal support for our police and for our 
prosecutors. Since 1997, the city's local law enforcement block 
grant from the U.S. Department of Justice, now the Justice 
Assistance Grant, has been reduced by 74 percent. In the 
President's proposed budget for this year, there will be no 
Justice Assistance Grant.
    And it gets worse. In the President's proposed budget, the 
Office of Community-Oriented Policing Services [COPS] program, 
will receive just $118 million. That is down from $606 million, 
or an 80-percent decrease. And of that $118 million, $96 
million of that are carry-over dollars from the 2004 budget. As 
a result, this means that the President has only proposed $22 
million for the whole Nation in new funding for the COPS 
office, a program which had invested over $208 million in 
support to Maryland's law enforcement professionals since 1995.
    The President also proposes to reduce funding to the 
Baltimore-Washington HIDTA by over 50 percent. I have attached 
an addendum to the testimony that outlines the destruction that 
this would cause if the President is successful with his 
attempt to dismantle HIDTA. When combined the proposed fiscal 
year 2006 funding level for the Department of Justice and 
Department of Homeland Security Assistance Programs is $2.1 
billion. That is a reduction of $1.4 billion, or 40 percent 
from the combined fiscal year 2005 level of $3.6. It represents 
a decrease of $2.5 billion or 54 percent from 2004.
    Congressman Cummings, you have supported this city and its 
heroic citizens for many, many years. You live in a 
neighborhood of this city where neighbors are battling back, 
where good things are starting to happen again because of your 
leadership and the leadership of your neighbors.
    Improved information sharing, bail reform, and harsher 
sanctions for victim-witness intimidation are things we need to 
work on on the local level. But on a Federal level we must 
request, must insist, that a commitment to increase Federal 
firearms prosecutions is a prerequisite for consideration of 
appointment to the critical law enforcement post of the U.S. 
attorney for the District of Maryland. We need adequate funding 
for our local police and prosecutors.
    Without the Federal Government as a partner in our fight, 
our attempts to ensure the safety of victims and witnesses will 
be severely undermined. We welcome any thoughts, any questions 
or ideas that you or your colleagues may have to assist us in 
addressing this problem, which is not only a city problem, not 
only a State problem, but it is also a problem for the United 
States. Thank you.
    [The prepared statement of Mr. O'Malley follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.012
    
    [GRAPHIC] [TIFF OMITTED] T3040.013
    
    [GRAPHIC] [TIFF OMITTED] T3040.014
    
    Mr. Souder. I would like to yield to Mr. Cummings.
    Mr. Cummings. Thank you very much. I want to thank all of 
our witnesses for being here this morning. Lieutenant Governor, 
I just want to go back to the whole issue of--when we look at--
you know, we have been trying very hard to get resources, and I 
know you have to--to our State. And one of the things we are 
hoping for at some point is that we will get more money for the 
program that you mentioned in your testimony, and you didn't 
talk about it because--I am sure it was because of time----
    Mr. Steele. Yes.
    Mr. Cummings [continuing]. But the Maryland Victim and 
Witness Protection and Relocation Fund----
    Mr. Steele. Yes.
    Mr. Cummings [continuing]. And in the testimony is said 
that to date $400,000 has been used of that fund by State's 
attorneys.
    Mr. Steele. Correct.
    Mr. Cummings. How much is in the fund?
    Mr. Steele. About $600,000.
    Mr. Cummings. About $600,000?
    Mr. Steele. $600,000 and about $400,000 of that has been 
used to date.
    Mr. Cummings. OK, so it is quite possible that they will 
use the rest of it then? I mean----
    Mr. Steele. It has been the experience, as I understand it, 
that fund has never been depleted. It has never gone to zero. 
It has never been used up. So whether we will spend the 
remaining $200,000 in the next 6 months of this year, 7 months 
of this year, I am not sure. I think Ms. Jessamy can address 
that more directly.
    Mr. Cummings. Yes, I hope so because that certainly would--
--
    Mr. Steele. But as of currently, the dollars that have been 
appropriated have not been spent to zero in any given fiscal 
year.
    Mr. Cummings. Yes, I just want to--I hope Ms. Jessamy does 
address that because that is very important, because what we 
are trying to do is bring more Federal dollars into the system. 
And if there is an issue of dollars already being there and not 
being spent--although I do realize that we are only one-third 
of the way along in the year and two-thirds of the funds are 
gone, but, you know, I appreciate the----
    Mr. Steele. But----
    Mr. Cummings [continuing]. Historical perspective.
    Mr. Steele [continuing]. If I may, and I think I touched on 
this in my testimony--part of that goes to the fact that people 
don't want to enter the program because they don't want to 
leave their homes and their communities on the one hand, and 
they don't want to be exposed on the other. So there is very 
little incentive for them to take advantage. And again, I think 
Ms. Jessamy can speak to her experience dealing with witnesses 
in a case by case. There is a great hesitancy to enter the 
program on the one hand simply because it means uprooting and 
moving. And, of course, the question is how protected am I, 
etc.
    So the other side of that, I think, and one of the 
challenges you have with these programs--it was just--there was 
a Washington Post article this weekend that spoke about a 
witness who was killed because the witness entered the program 
but then didn't want to follow the rules of the program and, 
you know, continued to, you know, cavort with the members of 
her former gang, etc. So there are a lot of features that are 
involved here in terms of how the programs function, how they 
are supported, and how those dollars are maximized to make sure 
that the witness is protected or relocated sufficiently and 
effectively.
    Mr. Cummings. The thing that, I guess, that I do applaud 
you on, Ms. Jessamy, for the State legislation--and I told Ms. 
Jessamy this at least on two occasions--that the legislation is 
important from the standpoint of increasing the sentences----
    Mr. Steele. Yes.
    Mr. Cummings [continuing]. And it is important from the 
standpoint of allowing certain testimony to come in, but a lot 
of people that I talk to--we need that third leg. Not that the 
first two aren't important----
    Mr. Steele. Right.
    Mr. Cummings [continuing]. I mean, very important, but 
there are people who are actually afraid to testify. And, you 
know, they are afraid for their lives. And I hope Ms. Jessamy 
will shed some light on this because if there is on the one 
hand--I know that there is a new type of witness, and maybe the 
witness intimidation program--the Federal program--was aimed at 
one point when they first began it, more or less the crime 
families and things of that nature, and the mafia and----
    Mr. Steele. Right.
    Mr. Cummings [continuing]. And now you have this different 
kind of situation. But still I think that if there are people 
who are not willing to go into the program, I would guess that 
it may be because it is not long enough or it is not 
necessarily works the way they want to work. But one thing I do 
know, after reading the Washington Post article, that when we 
are arresting people and holding them in contempt and putting 
them in jail to become witnesses later on, that doesn't seem 
like that is too much fun----
    Mr. Steele. Not much of an incentive.
    Mr. Cummings. Yes. No. So maybe we just need to look at 
that program and see exactly whether the changes need to be 
made within the program itself.
    But, Mayor O'Malley, let me just ask you, you just 
testified about this HIDTA, the proposed--basically elimination 
of the HIDTA program, and I must tell you that Republicans and 
Democrats on the Hill are very concerned about this. We have 
had testimony about this already. And another thing you talked 
about was cooperation, and how important cooperation is. How 
significant are the proposed cuts to HIDTA? How do you see that 
affecting witness protection types of efforts and the whole 
area of trying to address crime in our area?
    Mr. O'Malley. Well, Congressman, as you know from the hard 
work that you have been doing for the people of our city, and 
Congressman Ruppersberger knows from his days as a prosecutor, 
HIDTA is a very, very effective tool for creating that sort of 
teamwork that must exist between local police and Federal 
authorities, in order to combat the narcotics that are being 
shipped into our county, shipping through our ports, our 
airports, over I-95, that comes in is killing our people in 
such devastating numbers.
    HIDTA has been a very effective way for us to combat that 
drug trade. You take the resources and the knowledge of the 
local police with the Federal team, and you are actually able 
to bring about that sort of robust Federal prosecution to 
actually not only clip the dandelion, but to actually pull up 
that dandelion by root and all and take out drug organizations. 
It has been one of the most effective programs that we have had 
in terms of bringing about that sort of sharing. And it would 
be absolutely devastating, on top of all of the other cuts that 
are being made, not to mention the new, local, unfunded mandate 
to provide for the common defense in this changing world of 
conflict, and the nature of conflict in this changing world.
    So it would be devastating for us to lose HIDTA, and we ask 
you to do everything you can to preserve that. And then I am 
very, very heartened to see so many Republican Members of 
Congress recognizing the importance of HIDTA.
    Mr. Cummings. With regard to the whole idea of this whole 
effort of cooperation, and he was talking about the Federal gun 
prosecutions, why do you think that there has been a drop in 
that?
    Mr. O'Malley. Congressman, I really do not know. I really 
do not know. You know, the fact of the matter is there are 
already dollars budgeted for our U.S. Attorney's Office. We 
already pay to keep the electricity on in the courtrooms. We 
had a very positive year in 2003 thanks to your help and the 
congressional delegation. And we actually saw an increase in 
the number of gun prosecutions that year. Unfortunately, that 
dropped in 2004. And I really don't know why. That is a 
decision made by the U.S. attorney. Our former U.S. attorney 
decided there were other cases more important than Federal gun 
prosecutions.
    There is also a sense--not shared by his colleagues I might 
add--in the other neighboring Federal jurisdictions. There was 
a sense in our U.S. Attorney's Office that was a problem that 
local and State-level prosecutors had to deal with, and they 
shouldn't be asked to put Federal prosecutorial resources or 
courtrooms onto this task.
    But if you compare, Congressman, Maryland to the eastern 
district of Pennsylvania, we did 158 gun prosecutions in 2004; 
they did 197. Compare Maryland to D.C., they did 219. Maryland 
to eastern Virginia, they did 291. Now, a lot of times at 
election time, politicians say we are for Project X, we are for 
more robust Federal prosecution of gun crimes. But those hopes 
have not been realized to date in Maryland.
    And I really don't know the reason for it because I know 
President Bush himself and his--in his public pronouncement has 
said that he wants the Federal Government to be more involved 
in taking guns off the streets and out of the hands of those 
that use them to commit crimes of violence over and over again.
    Mr. Steele. If I could followup on the mayor's point, a 
couple of things come to mind. One is just from my own cursory 
conversation with some prosecutors around the State, typically, 
you know, gun violations are the first things that are pleaded 
out in most cases. And there is not an aggressive prosecution 
necessarily because you are trying to go for, you know, a 
greater crime if you will. That is part of, but not, I don't 
think, a significant part. I think, as we see it, you know, the 
Responsible Gun Safety Act of 2000 and its automatic five 
provisions pretty much handcuffed State's attorneys.
    And I know that Governor Ehrlich has met with the Maryland 
State U.S. attorney and talked about how we could work toward 
bringing more gun prosecutions to the table, certainly through 
our Project Exile efforts. There was an agreement at that time, 
a year and a half ago, by the U.S. attorney to do more, at 
least here in Maryland. And so we will continue to push forward 
to make that happen. But there are handcuffs that have been 
placed within the system that I think we should look at as well 
to make sure that we have sufficiently freed up our State's 
attorneys to prosecute these gun offenses to get the guns off 
the streets and to be serious about it. And working with the 
mayor, working with the Governor of the State to make sure that 
up and down that chain, there is a level of cooperation and 
communication with an eye toward getting guns off the street.
    Mr. Cummings. Just one last comment. One of the things that 
Chairman Souder and I have always been concerned about, 
particularly after September 11th, is that we saw a lot of 
effort being put into homeland security and making sure that 
another September 11th not happen again, and I think that we 
all agree that we don't want to see that happen. We have to 
address terrorism.
    And one of the things we also became concerned about is the 
Federal Government not putting the emphasis on crime and 
particularly drug crimes that maybe was there before because we 
got a little bit out of balance. And, you know, we are 
convinced that you have to do both. You can't just deal with 
terrorism and have narco-terrorism happening in our 
communities. And so I guess I am hoping that you all will, you 
know, continue to try to work with us, because as we speak--Mr. 
Governor, it is not just in Baltimore or just not in Maryland--
--
    Mr. Steele. Absolutely.
    Mr. Cummings [continuing]. That is why I emphasize what is 
happening in here is happening all over the country. As a 
matter of fact, I set my computer to Google for narcotics, and 
usually I can get about 20 articles a day, and a lot of them 
are about witness intimidation all over the country.
    Mr. Steele. Yes.
    Mr. Cummings. And I guess I always think about, Mr. 
Chairman, what my mother used to say. She says all that motion, 
commotion, emotion and no results.
    Mr. Steele. Yes.
    Mr. Cummings. Some kind of way we have to get a hold of 
this problem because people are dying. People are literally 
dying. You know, there is somebody somewhere right now who is 
having their door busted in somewhere in this country and 
somebody may be pointing a gun at their head or sending a note 
or somebody sitting in the back of a courtroom emailing 
somebody, messaging somebody saying Jane has just testified, 
you know, let us take care of him this afternoon sometime.
    So I just really hope that we can all work together to try 
to address these problems. And I don't think that enough 
emphasis has been put on--as a matter of fact, this Wednesday a 
family got--one of your friends, I guess, Mr. Souder, Mr. 
O'Riley to work with us and Fox to do a special on this, this 
whole witness intimidation program. Because as far as I am 
concerned, if we don't address this--I mean, our whole system 
can fall. And I am sure you all agree with that. Is that right, 
Mr.----
    Mr. O'Malley. Congressman----
    Mr. Cummings [continuing]. O'Malley?
    Mr. O'Malley [continuing]. When these incidents happen, you 
know, you just start asking yourself what is going to happen to 
the fabric of the United States if we do not come up with the 
will to stop it. We could easily go the way of Mexico City or 
other places where the whole criminal justice system breaks 
down. And the sad thing for us as a hyperpower, attacked as we 
were in that unprecedented way on September 11th, there was 
really an opportunity to put additional resources to the 
protection of our shores against the threat of terrorism that 
could have also inured to our benefit in fighting the domestic 
terrorists of drug trafficking and drug intimidators.
    Instead, sadly, what we have seen is a very cynical shell 
game where we take the resources that were in the glass called 
local law enforcement and we have poured that half-full glass 
into an empty glass called homeland security. So, I mean, we 
can say that there is more in this glass now for homeland 
security, but if there is less for local prosecutors, less for 
local police, and the COPS program has been eliminated, HIDTA 
is on the chopping block, we are really not advancing the cause 
and making our cities and our shores safer.
    And that is the sad predicament that we are in. For a 
little bit of additional money, the same security that could 
keep the nukes out of our port could also keep the cocaine and 
the heroin out of our port in greater numbers. For the amount 
of dollars that are going into putting cameras up to protect 
some critical infrastructure, we could be putting more cameras 
up to protect the most critical infrastructure we have, which 
is our people in our poorest neighborhoods who have been on the 
frontlines of this fight.
    It doesn't have to be this way. It is about choices. And I 
am really grateful that the committee has chosen to come to 
Baltimore to highlight the opportunities--not only the 
problems, but the opportunities that are out there for us as a 
Nation if we should so choose.
    Mr. Steele. I think this is an unprecedented time for 
mayors and Governors and Presidents, Congressmen, Senators, to 
get on the same page and to recognize that at the end of the 
day, there is a limited pool of money. No matter how you cut 
it, there is going to be a limited pool of money. And the smart 
people will figure out the best way to allocate those 
resources. I think you have just opened up a very important 
door, Congressman, with your comments in that we are beginning 
to see now, as we watch the minutemen along the Texas border 
take up the charge, and people begin to say, hey, maybe Al 
Qaeda is, you know, sort of slipping in through, you know, the 
immigrants who are coming in over the border, and now they are 
part of that fabric.
    We can't afford to sit by idly. And we have to be on the 
same page. We have to cooperate. And I think we are now getting 
at that point. And I know the Governor, myself, when we get the 
briefings, we are asking are we putting the resources that we 
have to the best practical use to protect the citizens of 
Maryland, to take advantage of the dollars that do come in, and 
coordinate as much as we can with local law enforcement?
    At the end of the day it is the mayor and the city police 
of large towns like Baltimore and small towns like District 
Heights in Prince George's County that are going to be on the 
frontline when something happens. They are the true first 
responders, and how we back them up, both county-wide, 
Statewide, and federally, I think will speak to our level of 
commitment.
    And I think the commitment is there. At least the words are 
there. Now we are hoping that we can coordinate the dollars and 
get the dollars to take advantage of this unprecedented 
opportunity, as the mayor pointed out, for us to really turn 
the corner, to protecting the courts, to protecting 
neighborhoods, to protecting the heart and soul of the economic 
system, but more importantly, the heart and soul of every 
community in our State.
    It is a challenge and is one that we have never faced 
before. It is one that we haven't quite drilled down on exactly 
how to do it and how to cover every base that needs to be 
covered and how to focus on every issue that needs to be 
focused. We are going into year 5 of post-September 11th, and 
there being many more years ahead of us, we have been blessed 
that nothing else has happened. But that doesn't mean it won't. 
So we must stay vigilant, we must stay focused, and we must be 
comprehensive.
    Whether we are talking about witness intimidation or 
whether we are talking about preventing the type of attacks 
that occurred more broadly on September 11th, we are hoping, 
and certainly you can count on this administration's 
cooperation with this committee, with you, with the Members, 
with our mayor, and all that have concern about the people of 
this State.
    Mr. O'Malley. Mr. Chairman, may I just say, Congressmen, 
may I just say a word of thanks to our Federal prosecutors for 
the way that they did jump in with both feet not only in the 
Dawson case, but also in the more recent case on Harwood. That 
was a terrific message to send to all of our citizens to see 
our Federal Government come in that way. If they could only do 
the same things with regard to increasing rather than 
decreasing Federal gun prosecutions.
    We are at, Mr. Chairman, a 7-year low. Last year was our 
lowest number in 7 years of Federal gun prosecutions. 
Currently, the end of April, we are headed for another 8-year 
low, because that was the lowest first 4 months of the year we 
have ever seen in terms of Federal gun prosecutions.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Mayor, I am baffled by something in your 
testimony. You started by saying 5 years ago we were the most 
violent city in America. Overall, our violent crime is now down 
40 percent. We are on the way to make it the safest biggest 
city. Yet later in your testimony you talked about the gun 
prosecutions. In fact, 5 years ago was the maximum--that was 
the date you gave for the maximum, and your violent crime is 
down 40 percent now. How do you reconcile this?
    Mr. O'Malley. Actually 2003, Mr. Chairman, was the most 
robust year in terms of Federal gun prosecutions, almost as 
many in 2000 as well. The measure that the Federal Government 
uses with regard to violent crime are the Part I index crimes: 
murder, rape, robbery, aggravated assault. If you measure those 
four together, that is where the 40 percent number comes from.
    The number with regard to homicides, I believe, went up 
last year in our city by about 2 percent, and that was on top 
of an increase of 3 percent from the year before. We averaged 
in the 1990's about 325 homicides. We have been averaging about 
265 in the year 2000.
    So the other crimes have actually gone down at a much 
bigger percentage than we have yet been able to get our 
homicides down----
    Mr. Souder. Because we had quite a bit of discussion--will 
you have the city provide to us a track of the gun prosecutions 
in the city of Baltimore and also the homicide and violent 
crime rates so we can see whether they are actually correlated?
    Mr. O'Malley. Yes, sir.
    Mr. Souder. Thank you. Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. Well, sitting here listening to 
the issues and the testimony, first, it is great to see both 
the Lieutenant Governor and the mayor sitting at the same 
table. This is a bipartisan issue and is something we have to 
work together with respect as a team, the State, local, and 
Federal together.
    Now, just a couple of comments first. September 11th did 
change a lot in this country. We are putting a lot of resources 
into intelligence and into our war. But still in my opinion the 
biggest problem that we have in the world are drugs. Drugs have 
more impact on our communities than anything else. Violent 
crime--over 80 percent, if not more, violent crime is all 
related to drugs. And we have not put the resources, yet we are 
hearing today that there are cuts.
    My concern--and I sit on the House Select Intelligence 
Committee--we deal with terrorism all over the world. My 
concern now is that the terrorists and the drug gangs will come 
together and even make our situation worse. We have a very 
serious situation in Mexico now where a tremendous amount of 
drugs--probably over 80 percent, I am not sure of the exact 
percentage--come in through Mexico. And yet, we don't have the 
resources, where our CIA, our NSA, our DEA all coming together 
working to deal with the issues that we have to deal with, 
including immigration.
    Because, as you said, Lieutenant Governor Steele, the money 
is limited. So we have to reprioritize where we are going to 
go. And that is why I really thank Chairman Souder and Elijah 
Cummings for focusing in Baltimore right now. This hearing, 
hopefully, we will come away with some results.
    Now, you know, with that in mind we have heard the issue of 
communication, you know, focusing on where we need to put our 
money. I want to ask a question, because we want to walk away 
from this hearing with some recommendations so that we can try 
to implement these recommendations and not have another hearing 
and then it gets lost. And I know Chairman Souder and Ranking 
Member Cummings won't allow that to happen.
    So my question to you, Mr. Mayor, and also Governor Steele, 
if in fact we could be chosen to put together a pilot program 
in Baltimore with Federal, State, and local coming together, 
and we are going to have certain resources of money, where 
would you like to see the money go? Where would you think that 
we could get the best bang for our buck so that we can justify 
to the President, to the administration, that we in Baltimore 
have a team approach--Federal, State, and local--we are having 
a bipartisan approach to deal with the issue of not only drugs 
and witness intimidation, but it all comes together. And what I 
would like you to do is not only testify to that where you 
would like to go, but follow it up with recommendations, both 
the Governor's office and also you, Mr. Mayor, to our committee 
so that we can come with recommendations to try to implement 
where we need to go.
    And, you know, Lieutenant Governor Steele, you talked about 
Governor Ehrlich meeting with the U.S. attorney. And I think 
that is great because we have to do that. But I think we need 
to go a step forward. We have to not only meet with them, but 
come away with a plan. And I would hope that at those future 
meetings--because the U.S. attorney is going to be in 
Baltimore----
    Mr. Steele. Right.
    Mr. Ruppersberger [continuing]. But you would also have the 
mayor and Pat Jessamy and maybe the Commissioner all come 
together so it is a team approach to where we need to go. So my 
question, basically--and either one wants to start--if in fact 
Baltimore was picked for a pilot program, where would you like 
to see the resources go? Mr. Mayor, you talked about that we 
don't have a proper system of communication. We don't have the 
ability to track recidivism, to see who is on the street and 
who is not. And that is basically resources and management. And 
management starts at the top. So where would you like to see 
the resources go if we could do something and have a pilot 
program that would make a difference and that we could justify 
this program to the administration in Washington?
    Mr. O'Malley. The three that come to mind, one requires no 
additional resources at all, and that is to make sure that the 
next U.S. attorney for Maryland makes a commitment to increase 
gun prosecutions rather than continuing the back-sliding in the 
decrease in Federal gun prosecutions.
    The second aspect would be to continue the Federal level of 
funding for local law enforcement efforts on such things as 
HIDTA being a No. 1 request, but the COPS program was also a 
huge help to us.
    While this one was not in my notes, I am going to put it 
out there anyway. I think for a very minimal amount of money 
that the sort of security that wealthy people who live in gated 
communities have from cameras is something that we should be 
investing in with regard to our poorest neighborhoods where 
drug dealers sometimes operate with great impunity. And that 
would be a huge force multiplier for----
    Mr. Ruppersberger. Mr. Mayor, from a specific point of view 
you mentioned resources in HIDTA. That is a macro issue. What I 
am really looking for is a micro issue such as cameras, such as 
giving money to put together a communications system that is 
going to work. I mean, these are the specifics that we can then 
justify to ask for money. So when you followup with a 
recommendation to the committee, we need to think out of the 
box on what is going to work, and to put money into specifics 
such as cameras if you think it works; I think your 
communication issue is extremely important also.
    Mr. O'Malley. The communications issue should be something 
that--I was almost embarrassed to ask for that, because it is 
really something we should be able to fund. I mean, if we can 
fund it through a local government, the State should be able to 
fund it as well. I mean, it is a matter of just making 
computers network and automating parole and probation. It needs 
to become a priority. Then again, Congressman, if--you know, I 
hear your request and I will try to, you know, list out some 
specifics----
    Mr. Ruppersberger. Even our FBI is having problems there, 
so----
    Mr. O'Malley. Right. Maybe we could become a national 
model.
    Mr. Ruppersberger. Well, that is what we want. That is what 
I am asking for.
    Mr. O'Malley. OK.
    Mr. Steele. Congressman, thank you. Again, I think the 
communication issue is a huge piece, and we would certainly 
love to work with the mayor and his office to see where the 
State is out of sync and try to get us in sync. I know that our 
secretaries in those departments are looking to revamp and 
revitalize and see where they are and get that directly on that 
point.
    I think one recommendation I noted that Governor Ehrlich 
was very, very supportive of and would like to see pass was the 
Witness Protection and Interstate Relocation Act. And that bill 
had to pass--would have surveyed all State and selected local 
witness protection relocation programs to determine and report 
to Congress the extent and nature of the problem.
    I don't know if Congress fully appreciates except outside 
of anecdotal information that may be reported in a local 
newspaper exactly what a State attorney like Pat Jessamy has to 
go through and what she has to deal with on a day-in and day-
out basis. And I think that would help, again, to go to my 
point of working with those limited dollars, making sure that 
they are going to be appropriated and used in a way that will 
help her respond, but more appropriately, come back to you and 
demonstrate through various reductions of witness intimidation 
cases.
    Certainly making available training to assist State and 
local law enforcement agencies and developing and managing 
witness protection and relocation programs. Our law enforcement 
officers on the ground play a vital role there, and so it is 
important that they be appropriately trained and that their 
efforts be enhanced.
    Certainly establishing again a tighter partnership and 
stronger partnership between municipalities like Baltimore and 
State government who, in turn, will come together to the 
Federal table and lay out a model as the mayor noted.
    But I think probably the best way to answer this question 
is to get the need and desires from the person on the ground, 
and that is the State's attorney. And we have her here, and I 
would welcome her comments directly on what she needs and how 
we can, in combining State resources, city resources, Federal 
resources, assist her more directly. So we would be in a 
position of providing you, certainly from the Governor's 
perspective, what additional direct efforts should be made or 
could be made with those dollars. And we would like to do that 
in combination with what the city would need or certainly the 
State's attorney would need so that we are----
    Mr. Ruppersberger. Well, specific recommendations----
    Mr. Steele [continuing]. More comprehensive----
    Mr. Ruppersberger [continuing]. And there is one last point 
and then I have to stop----
    Mr. Steele. Sure.
    Mr. Ruppersberger [continuing]. Because time is up. And you 
talked about the State's attorney, but also I think the police 
on the frontline too.
    Mr. Steele. Absolutely.
    Mr. Ruppersberger. One of the things, in my communication 
with local law enforcement, is that the State and local laws, 
even though we have done something in Annapolis, and I thank 
you for that, but that still the only way we are going to be 
able to deal with this issue is the deterrent. And the only 
deterrent right now is that the local gang members are deterred 
by the Federal Government being involved.
    Mr. Steele. Right.
    Mr. Ruppersberger. So we have to make sure--and I hope part 
of your specific recommendations to this committee will be in 
dealing with those laws that need to be strict. And we need to 
make sure the Federal laws and the State laws and local laws 
come together so that somebody is going to pay when they do 
something such as----
    Mr. Steele. Absolutely.
    Mr. Souder. I thank you for your testimony this morning and 
for being with us. We appreciate the time and we look forward 
to trying to work with all of our recommendations today.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. O'Malley. Thank you, Mr. Chairman.
    Mr. Souder. If the second panel could come forward, Mr. 
Floyd O. Pond, Assistant Director of the Washington-Baltimore 
HIDTA; Lieutenant Craig Bowers, Baltimore County Police 
Department; and Ms. Patricia Jessamy, State attorney for the 
city of Baltimore.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Let me also ask unanimous consent 
to insert into the record the statement by Mr. Thomas Carr and 
also from Heather Cartwright. And also we will receive Reverend 
Tucker's testimony. Without objection, it is so ordered.
    [The prepared statements of Mr. Carr and Ms. Cartwright 
follow:]

[GRAPHIC] [TIFF OMITTED] T3040.015

[GRAPHIC] [TIFF OMITTED] T3040.016

[GRAPHIC] [TIFF OMITTED] T3040.017

[GRAPHIC] [TIFF OMITTED] T3040.018

[GRAPHIC] [TIFF OMITTED] T3040.019

[GRAPHIC] [TIFF OMITTED] T3040.020

[GRAPHIC] [TIFF OMITTED] T3040.021

[GRAPHIC] [TIFF OMITTED] T3040.022

[GRAPHIC] [TIFF OMITTED] T3040.023

[GRAPHIC] [TIFF OMITTED] T3040.024

[GRAPHIC] [TIFF OMITTED] T3040.025

[GRAPHIC] [TIFF OMITTED] T3040.026

[GRAPHIC] [TIFF OMITTED] T3040.027

    Mr. Souder. Thank each of you for joining us this morning. 
Mr. Pond, thank you for coming, and we will start with you.
    Mr. Pond. Thank you, Mr. Chairman, Congressman Cummings, 
Congressman----
    Mr. Souder. Can you move the mic----
    Mr. Pond. Sure.
    Mr. Souder [continuing]. Toward you.

  STATEMENTS OF FLOYD O. POND, ASSISTANT DIRECTOR, WASHINGTON-
  BALTIMORE HIDTA; LIEUTENANT CRAIG BOWERS, BALTIMORE COUNTY 
 POLICE DEPARTMENT; AND PATRICIA JESSAMY, STATE ATTORNEY, CITY 
                          OF BALTIMORE

                   STATEMENT OF FLOYD O. POND

    Mr. Pond. I am representing Tom Carr of the Washington-
Baltimore HIDTA. Mr. Carr is out of the country at the moment, 
but he wishes that I express to you our appreciation for your 
support of the HIDTA program. This committee, the leadership of 
this committee, and the support of its ranking member have been 
significant in terms of what we have seen now in our efforts on 
the Hill in terms of gathering support for the program and 
moving it back into the Office of National Drug Control Policy 
and restoring its funding. So we appreciate not only the 
hearings, but your followup and what we are hearing from 
Chairman Davis and others in terms of how they value your 
recommendations. So that is very encouraging to us as we make 
our rounds on the Hill.
    I am, as you just indicated, submitting Mr. Carr's prepared 
testimony for the record, and I would like to provide some 
brief background and highlight our recommendations. But first, 
I would like to acknowledge your outreach efforts, and I am 
aware that this committee has gone from the Eastern Shore to 
the Northwest. It gets out of Washington. I think those of us, 
if it hasn't been expressed previously, really appreciate 
seeing Washington in our backyards, especially when you are 
looking at local issues of national importance.
    And finally, on that regard, and it was mentioned briefly, 
but I think it is important for everyone to recognize that 
through the persistence of Mr. Cummings and his persuasiveness, 
Director Walters was able to steer $1.5 million back into 
Baltimore City for the Baltimore Target Initiative, which was a 
direct response to the Dawson family tragedy. And HIDTA was a 
venue for corrugating that effort with the Baltimore City 
Police Department and the Believe Campaign, and we really 
appreciate those efforts of Congressman Cummings. And I think 
the public at large should be aware of those efforts and the 
support from the chairman. We really appreciate this bipartisan 
support.
    As to the issue of witness intimidation, it is an issue of 
national importance. It has been discussed here previously, and 
is a proper subject of your review and action. It is driven by 
violent drug and gang cultures. Of over the 200 drug-
trafficking organizations our HIDTA currently targets, nearly 
50 percent use deadly force to discourage competition and 
enforce obligations or protect themselves from the law 
enforcement or predator groups.
    When you eliminate the money laundering organizations and 
the interdiction organizations we target, more of the mid and 
upper-level organizations beyond that, I would say nearly 80 up 
to 90 percent of them use violence as a way of doing business. 
So this is a significant culture that reaches all of our 
population.
    Another emerging issue in this region is gangs, many of 
whom operate as drug-trafficking organizations. Others are more 
broadly criminally involved, but one factor that remains 
constant is their predisposition toward violence and witness 
intimidation. With this background, I would like to focus your 
attention on some specific recommendations for improving 
witness protection.
    It is nearly impossible to generate reliable statistics to 
illustrate the growing problem of witness intimidation, as 
there is no central reporting agency or task force to which a 
targeted witness may turn. While the following recommendations 
for a comprehensive witness protection program are not 
supported by identifiable hard data, I am confident that 
prosecutors and the law enforcement community appreciate the 
dangers associated with violent drug and gang organizations and 
the prevalence of witnesses becoming victims. With this 
understanding, here are some recommendations for the 
committee's consideration.
    Every State should implement a Statewide witness protection 
plan with a coordinating board and a paid executive director. 
It shall be the responsibility of the executive director to 
oversee all program operations, implement policies and the 
strategy adopted by the board, acquire sufficient resources for 
the program's operations, and manage resources effectively.
    Second, each State witness protection plan could be 
established through the use of Federal funding. Support, 
however, should be provided by court fees and other available 
State sources similar to State and local matches currently in 
place in the Byrne Program. We have that here in Maryland. The 
Maryland Witness Protection Program, as State's attorney 
Jessamy can tell you, the relocation program has funds that are 
supported through local assessments and fees. So this would be 
a perfect match for a Federal-targeted--either a State program 
or a targeted city program.
    Third, all witness protection plans should include 
emergency, short-term, and impermanent relocations procedures 
and incorporate a management plan.
    Fourth, all boards should consider coordination with 
neighboring States in an effort to encourage the sharing of 
resources.
    Fifth, overt witness intimidation should be deemed 
felonious and punishable as a felony.
    Sixth, in each case involving a witness to a gang-related 
violent crime, an automatic protection order should be issued 
specifying the distance to which the defendant must remain from 
the witness. A violation of such an order should constitute a 
felony and shall be punishable as a felony.
    Seventh, each State should provide guidance in training the 
judges, bailiffs, prosecutors, and law enforcement on witness 
intimidation issues and their roles in responding to such 
incidents.
    Eighth, court security procedure should be regularly 
reviewed and updated when necessary. I suggest a prohibition on 
gang dress and color in all courtrooms in which the defendant 
or the witness are linked to gang activity.
    When dealing with high-profile gang-related cases, the 
courtroom should be closed to the public. A central reporting 
agency should be established to track all complaints of witness 
intimidation. It is nearly impossible to generate reliable 
statistics to illustrate the growing problem of witness 
intimidation, as there is no central authority to which a 
targeted witness may turn.
    And finally, a 24-hour hotline should be established to 
record all witness complaints of intimidation or provide swift 
assistance by law enforcement.
    As a final recommendation, I suggest the committee contact 
Ara Crowe, Maryland State's Attorney's Association coordinator, 
about the operation of a Maryland Witness Protection Program he 
manages. That program may serve as a model program. Obviously 
State's attorney Jessamy is very familiar with that program, 
and she could also testify to that.
    I am sure the committee can appreciate the challenges the 
justice system faces when witnesses fail to come forward or 
refuse to cooperate with an investigator or prosecutor. I ask 
the committee to consider our recommendations. I believe the 
implementation of some or all of these suggestions could 
fortify and stabilize the witness protection program and 
consequently strengthen the justice system. I thank the 
committee for this opportunity.
    Mr. Souder. Thank you. Our next witness is Lieutenant Greg 
Bowers of the Baltimore County Police Department.

                   STATEMENT OF CRAIG BOWERS

    Mr. Bowers. I thank the gentleman. As mentioned, I am a 
lieutenant with the Baltimore County Police Department with 31 
years of experience in law enforcement. The last 10 years have 
been in the homicide division. I have been asked to give a 
local perspective from a smaller agency of just how witness 
intimidation affects us and to give several examples of what we 
have.
    As I said, I am from one of the outlining counties, 
Baltimore County, and we are continually experiencing an 
increase in the reluctance of those witnessing or having 
knowledge of criminal activity to share that information with 
law enforcement. The fear for their safety and the safety of 
their family and loved ones is genuine. We only need to look at 
the cases that have been discussed here around the State and 
the publicity surrounding those instances to concur that 
witness intimidation is a factor affecting the judicial system.
    From our perspective of--I am going to give two examples. 
One was a murder that occurred at a local nightclub. It was 
witnessed by three individuals, all from out of the county. 
When initially questioned by the police, they were very willing 
to help and were able to supply descriptions of suspects and 
vehicles used. One witness became very critical to the case, 
and we were able to determine that this murder was drug/gang-
related. And using in part her information, made an arrest. She 
followed through on that by viewing photographs and also by 
viewing the lineup in which the person was identified in both 
cases.
    After the motions hearing was postponed several times, it 
finally came on board as scheduled. As I stated, she was living 
outside the county and outside the city. As she was leaving her 
home, she was approached by two individuals who she said were 
rough looking. As she was walking to her car, they approach her 
and say are you going to court? She ignored them, began to walk 
around. They blocked the way to her car, opened up their 
jackets; both were displaying handguns in their waistbands.
    Of course, as expected, she came to court that day. 
However, due to a defense request to postpone and was over the 
objections of the State, the case was postponed. Several months 
later when the trial began, she came to court and testified 
that she couldn't identify the suspects. She didn't recall 
viewing the photographs or making any earlier identifications. 
The jury verdict in that case was not guilty. They polled the 
jury afterwards; it showed a concern among the jury members on 
how it was possible that the witness could not remember what 
she had said to law enforcement and questioned the accuracy of 
the officer's testimony.
    The second case just happened this summer. We had a 16-
year-old who was lured out of her home. She was beaten and 
burned and found in a park in Pikesville. Her only crime--not 
really a crime. Her only impact was that one of the defendants 
that were arrested--and we made four arrests--had thought that 
she was going to be a witness in an upcoming case that he had 
on a sexual assault. She wasn't.
    Also, in closing, within the past 24 months we have 
investigated five solicitations to commit murder involving 
defendants who had expressed an interest in having their 
witnesses, which could have testified against them, killed. 
Witness intimidation continues to increase the threat to public 
safety and to the effective and fair prosecution of criminal 
cases. Those responsible for carrying out or orchestrating this 
intimidation are not fearful of imprisonment, and currently, 
law enforcement can offer very little short of relocation, 
where currently the funds are limited. These otherwise 
community-involved, law-abiding citizens find themselves 
ultimately faced with a choice: potential harm to their self, 
separation from their family, or not to cooperate with law 
enforcement. Thank you very much.
    [The prepared statement of Mr. Bowers follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.028
    
    [GRAPHIC] [TIFF OMITTED] T3040.029
    
    [GRAPHIC] [TIFF OMITTED] T3040.030
    
    Mr. Souder. Thank you. Our next witness is Ms. Patricia 
Jessamy, State attorney, city of Baltimore, whose name has 
almost become a legend just in this hearing here with all 
people talking about you.
    Ms. Jessamy. Yes, I guess I have.
    Mr. Souder. Thank you----

                 STATEMENT OF PATRICIA JESSAMY

    Ms. Jessamy. Chairman Souder, Congressman Cummings, and 
Congressman Ruppersberger, both of whom I consider my 
Congressmen because even though Congressman Cummings represents 
me where I live and work, Congressman Ruppersberger represents 
the district just a couple streets above where I live. So we 
have had a wonderful relationship over the years. But I want to 
thank you all for coming to Baltimore.
    This is an issue that I am very passionate about. I go 
around the community all the time talking to the community 
about issues that affect the criminal justice system, and 
usually when I am introduced, they introduce me and they say 
this is Mrs. Jessamy. She is responsible for crime. Now, after 
I have recovered and laughed a little bit at that description, 
I respond back and I tell them no, I am not responsible for 
crime; I am a prosecutor. And my job is to see that justice is 
served. Because that is the way I view it, serving justice.
    What I have seen, however, over the course of the last few 
years, and it is becoming more of what I term a crisis; I have 
seen that when witnesses are silenced, justice is not served. 
And it is becoming a bigger and bigger problem, not just in 
Baltimore City, but throughout the country.
    So I have been the State's attorney for Baltimore City for 
10 years. Before that I was an assistant prosecutor, and I 
practiced law in four States. And I can tell you this is the 
most challenging thing I have ever had to deal with in my life.
    I want to begin first by thanking Congressman Cummings 
because he comes in and he doesn't just go to Washington and 
come back home on occasion. He is always here. And he listens 
to what we have to say, and he attempts to aid and assist us in 
addressing our concerns. Congressman Cummings knows and has 
indicated today that witness intimidation is a very important 
public safety issue, and I want to commend him for introducing 
the Witness Security and Protection Act of 2005, which is House 
Resolution, I guess, 908. And this bill provides dedicated 
Federal funds for local witness protection programs.
    I think that this is urgently needed to streamline what we 
currently have toward a more independently operated victim and 
witness assistance programs, which are directed by local 
prosecutors. A uniform, Statewide program that offers 
protection by law enforcement officers to crime victims I 
believe is very much needed. So when I met with Congressman 
Cummings last week, I told him that I would do everything 
within my power, and I am a very passionate, speak-what-I-say, 
what-I-think person to support this House Resolution, because 
it is very important for us.
    But I do want to talk to you a little bit more about this 
conspiracy of silence. What are we seeing as prosecutors in 
court every day? We are seeing that when witnesses are 
silenced, our whole system is in jeopardy. Now, people have set 
out some examples for you here, and Congressman Ruppersberger 
was talking about--and Congressman Cummings were talking about 
the text messaging. But witness intimidation comes in many 
forms. Some of it is very subtle.
    But I can tell you, since September 2004, we have had seven 
witnesses shot or killed. That is the reality. Everybody--we 
can talk about the Dawsons, and that was a horrendous thing, 
but things like the Dawsons continue in our city every single 
day. Thank God, no other families have been murdered as a 
result of arson, but individuals are being killed; they are 
being shot; they are being threatened; they are being 
intimidated in many ways.
    There are two examples just the last week I want to share 
with you. I learned from a district court prosecutor that the 
victim of an assault was so terrified of being identified and 
recognized in court that he came to court in disguise. The 
victim had witnessed drug activity in his neighborhood and had 
reported this to the police. The defendant told the victim in 
front of the police, the police won't be here forever. When 
they leave, you are dead. The defendant was charged with 
second-degree assault and he eventually pled guilty. But he was 
just sentenced to 6 months in jail.
    On Wednesday of last week a witness who was threatened 
multiple times by the victim and defendants in a shooting, was 
so reluctant to testify that our witness locator unit was 
called to serve a body attachment to detain him in jail because 
of his previous failure to appear when summoned by the courts.
    Now this is--and I know Congressman Cummings alluded to the 
Washington Post article--this is a last resort. As prosecutors, 
we are struggling. We want our witnesses in court. We want them 
testifying to what they have seen or heard. And when we talk 
about the right to confrontation, I think everybody involved in 
the criminal justice system would rather have that witness 
there.
    Well, this witness had no criminal history. He was just 
scared. But he was arrested because he had failed to come to 
court. It just so happened that the witness and the defendant 
were held in close proximity to each other, and during the time 
they were in the bullpen, a note was passed to him. The note 
was in writing and the note contained threats on his life. Not 
only that, but friends and colleagues also verbally threatened 
this witness.
    But this witness had what I term courage because the 
witness did eventually testify. The witness testified that the 
defendants and his friend were the people he saw shot the 
victim. Unfortunately, the victim, however, got on the witness 
stand and recanted and said oh, I was mistaken. It wasn't this 
defendant. It was someone else.
    As a result, these murderers are back on our streets. That 
is the effect that witness intimidation has. Those are the 
things that we are seeing. And you all know about this DVD. And 
I can tell you, if you haven't seen it, I am going to hand to 
you today and I hope it is introduced as a part of this record. 
Because when you see individuals laughing, smoking marijuana, 
showing their guns, telling people how to silence witnesses and 
what to do for rats and snitches. It is a very frightening 
thing.
    Now, what have we done in reference to this what I call 
plague on our city? And it didn't just start really. In 1995, 
as a result of a high increase in violence on the streets of 
Baltimore City as a result of crack-cocaine being introduced to 
our city, we had a witness killed. And I was asked--I think it 
was 1994. I was asked by then Stu Simms, who was a State's 
attorney to draw up a witness security plan. I drew it up, and 
we became one of the first jurisdictions in the country to 
begin to spend money to protect witnesses based on what we had 
seen. I have budgeted by the city of Baltimore every year 
$300,000 for that. I also utilized the fund that Floyd Pond and 
others talked about today, which is a State fund. And any time 
I go over my $300,000 budget, I use that money to cover those 
additional funds, and I get automatically from that fund 
anywhere between $50,000 and $100,000 additional a year.
    But this amount we don't have--in my testimony I can tell 
you exactly how many witnesses we have used thus far. We have 
spent of that $300,000 this year $219,000 for temporary 
housing. We have spent $53,000 for security deposits and rent 
to arrange permanent relocation after temporary relocation has 
been provided. We have spent $13,000 for detoxification, 
because that is all a part of it. There are a lot of different 
things you have to do to get witnesses ready, able to come to 
court to testify. And we have spent more than $36,000 in 
storage and moving expenses.
    Now these are just out-of-pocket expenses. They don't 
account for the law enforcement officer who--oftentimes when we 
move people and take them to relocation--have to go, as they 
are armed, to protect them, to take them back and forth to 
their normal, day-to-day activities. The sheriff's deputies and 
the police officers. It does not entail the moneys spent by law 
enforcement officers sitting in front of someone's house to 
protect them until we can relocate them to another place. But 
those are the kinds of expenses that we are seeing.
    What else have we done? We work to provide a change in the 
law because, as the Lieutenant Governor said, our current 
statute provides for a misdemeanor. If you are convicted, it is 
a misdemeanor offense punishable by no more than 5 years if you 
are convicted of witness intimidation and threats. We felt that 
was too little.
    It also did not provide a provision in there for 
conspiracy. Oftentimes, we have individuals that even if they 
are locked up, they call their friends and their colleagues to 
do their dirty work for them. So we felt that conspiracy was an 
integral part to adding strength to the current statute.
    We also thought that even though it is our desire to have 
all witnesses in court, that is not the case. Too often because 
of threats and intimidation, witnesses go underground and they 
refuse to be found. They go into hiding. But sometimes they 
have given prior statements as to who the guilty parties are or 
other statements that, as law enforcement, we need to be able 
to use. But because of restrictions on hearsay, we would not. 
Well, our Federal partners had a hearsay exception, which is a 
forfeiture by wrongdoing exception, which would allow--if we 
can, as prosecutors, prove unavailability, would allow us to 
introduce those prior statements.
    So we, in conjunction with the Governor of the State of 
Maryland, worked with him, and he introduced legislation to 
that effect, increasing the penalty to 20 years, adding 
conspiracy, and providing for the same kind of forfeiture by 
wrongdoing exception that our Federal counterparts enjoy.
    Well, unfortunately, we didn't get everything we need. We 
did get passage of the legislation. It has now been 
strengthened to 20 years. We have conspiracy. The hearsay 
provision was somewhat watered down. It only applies to felony 
drug offenses and crimes of violence. Unfortunately, in the 
State of Maryland, child abuse and domestic violence are not 
considered crimes of violence. Even though most of those cases 
involve people we know and intimate partners, we should not 
isolate and exclude them from being protected by the same 
statute that we are protecting people from intimidation by 
strangers.
    So we are hopeful that we will be able to strengthen the 
hearsay portion of this statute at next term's legislative 
session.
    What we did this year as opposed to last year when we 
initially worked with the Governor to introduce it is we passed 
this DVD out to our legislators. We thought that witness 
intimidation had to be a real bipartisan effort. And 
fortunately, this year we had 118 Members of the House of 
Delegates signed on to the administration bill. That is quite a 
feat in the State of Maryland.
    We had 38 senators who signed on as cosponsors of the bill 
to change things in the State of Maryland. That is quite a 
feat. And it happened, I believe, because this was something 
that everybody, whether you are a Democrat or a Republican, 
whether you are from a rural or an urban area, that you could 
agree with. So we are pleased that we have the statute. I call 
it a toothless tiger, and we will be working to add more teeth 
to it.
    What do I think that we need our Federal partners to do? My 
prosecutors had told me that in addition to providing witness 
protection, in addition to strengthening our witness 
intimidation statute, that we needed detectives to help us find 
witnesses. The police department, thankfully, has given us a 
team of people to go out and locate witnesses in homicide 
cases, and since September has given us two detectives to find 
witnesses in shooting cases. But right now, we do need the 
statute that Congressman Cummings has introduced. I will be 
working to strengthen the hearsay statute. But having U.S. 
Marshals who have experience in this area working with Maryland 
State Police, with local police officers, and with prosecutors 
would be a wonderful thing to have.
    I have been trying to provide witness assistance since 
1994, but I don't carry a gun. And most of the people in my 
office don't either. I was told--I used to say we didn't carry 
guns and badges, but we do have badges. But we are not police 
officers. And we need people who know and understand what 
witness protection is all about doing it. And we need it to be 
consistent throughout the State.
    One of the areas where we also need some assistance has to 
do with Federal housing. A lot of our witnesses are eligible 
for Federal housing. We have an agreement now across the State 
of Maryland where we can transfer witnesses when we relocate 
them, if they are eligible for Federal housing, to any Federal 
housing facility in the State of Maryland. But we are running 
into problems when it comes to Section 8. There are no issuance 
of Section 8 certificates, I think, since last year, and there 
are other problems and provisions within the housing 
regulations that prohibit us from doing some of the things that 
we need to be doing in terms of housing witnesses who are 
eligible for Federal housing.
    I agree with many of the recommendations made by Floyd Pond 
and would be happy to answer any questions that you have at 
this time. I also want to thank the Governor and the Lieutenant 
Governor for their leadership in this whole area of witness 
intimidation.
    [The prepared statement of Ms. Jessamy follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.031
    
    [GRAPHIC] [TIFF OMITTED] T3040.032
    
    [GRAPHIC] [TIFF OMITTED] T3040.033
    
    [GRAPHIC] [TIFF OMITTED] T3040.034
    
    [GRAPHIC] [TIFF OMITTED] T3040.035
    
    [GRAPHIC] [TIFF OMITTED] T3040.036
    
    Mr. Souder. You all presented a pretty grim picture for 
much more even in the edges of urban areas. It is--I think it 
is fiction, but what you are describing is real life, and it is 
kind of scary. I wanted to also ask Mr. Cummings and Mr. 
Ruppersberger if we could--I gave a note to Mark. Did you say 
Carmelo Anthony is on this video that you are talking about? 
That my understanding is as a followup on the steroids and drug 
issue, we are going to do NBA probably after the season, but we 
ought to request to the chairman that he be called and forced 
to explain participation. It is a way to highlight that type of 
thing because that is--I have seen it, but it sounds disgusting 
and we need to----
    Mr. Cummings. Mr. Chairman, I think that is a great idea. 
My office has had direct contact with Mr. Carmelo Anthony's 
agents and also the head of the Denver Nuggets, and he sort of 
flip-flops. He----
    Mr. Souder. Well, we----
    Mr. Cummings [continuing]. Says he wants to cooperate; then 
he says he doesn't. And I think it would be very helpful. I 
would love to have him come and explain things like this----
    Mr. Souder. Public retraction.
    Mr. Cummings. Yes, because he has made some statements on 
his Web site and probably some public statements, but he has 
been very reluctant. He was very bold, I mean, sitting around 
in this tape, and you will see this. He is clearly there. But 
what is done, Mr. Chairman, is by him being in it, it just--in 
the worlds of young people, it just blew it up. In other words, 
it has made it a much more popular piece that has floated, I 
mean, just all over the place.
    And now, to the point, as I said a little bit earlier, 
where we now have tee-shirts saying ``stop snitching.'' I mean, 
and by the way, the stores are selling out of these tee-shirts, 
which is incredible to me.
    Mr. Souder. It becomes an----
    Mr. Cummings. I agree with you.
    Mr. Souder. It becomes an intimidation factor in and of 
itself. We were already having this discussion about in the 
schools around the country of the kids' cooperation, and this 
just fuels something like that.
    When you have--we were talking earlier about your meeting 
that you have had with the attorneys across the country. Do you 
see these kinds of problems widespread, more intense in some 
areas? Lieutenant Bowers described in a smaller county outside 
the city of Baltimore. How widespread is this? How challenging 
is it?
    Ms. Jessamy. It permeates almost everything we do. Our 
homicide prosecutors tell me that in about 90 percent of all 
the homicides, there is some form of intimidation. In our 
shooting cases, we have been able to document--because we keep 
very detailed statistics in reference to those that--between 25 
and 33 percent of those cases are lost as a result of witness 
problems, the vast majority of those witness problems having to 
do with threats and intimidation.
    It is a very serious problem. We have even had--and it is 
not only in violence cases. That is what we are seeing. Like 
the other case was just an assault in the district court, and 
the witness was so intimidated had to put on a disguise. But we 
have had cases where people were paid $10 to beat someone up, a 
witness up, with a bat in a very minor district court case. It 
is all over the place, and what has happened is people are so 
emboldened. And I refuse as a prosecutor to ascribe to the 
theory that criminals are in charge of the streets of this 
city. We have to fight back in every way we can, and that is 
why this has become such a mission for me.
    I know there is a lot that must be done. We are trying to 
do it on every level. And we are working with everybody. I know 
there has been a lot of discussion relative to the Federal 
authorities. We have a meeting scheduled with the acting U.S. 
attorney Wednesday afternoon, the police commissioner. And what 
he has done, he has pulled together every Federal agency so 
that we can look, we can sit down and meet, and we can talk 
about how we can work together to deal with developing a 
strategy for fighting crime in Baltimore City that includes 
everybody. So we are very interested in working with Federal, 
State, and local. And we need all the assistance we can get.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Ms. Jessamy, one of the things that--you 
heard the Lieutenant Governor's testimony, did you not?
    Ms. Jessamy. Yes.
    Mr. Cummings. And it was very interesting--well, it is in 
his written statement, but he talks about this Maryland Victim 
and Witness Protection Relocation Fund, and during his 
testimony he kept referring to you, that you could provide us 
with more information. But one of the things that is written in 
his testimony and I think he said it, is that they had $600,000 
and they spent $400,000 and distributed it to various State's 
attorneys for witness protection. And I don't want us to leave 
this hearing under the impression that, unless it is accurate, 
that $600,000 is enough money to address these problems. And my 
question is probably about 3-fold.
    Ms. Jessamy. Yes.
    Mr. Cummings. One, how does that program work for you and 
your situation? I just heard you say when you run out of the 
$300,000 that you have locally, you then go and get anywhere 
from $50,000 to $100,000. Of course, if that is--let us use the 
top figure of $100,000, that is one-sixth of the total 
$600,000, which means the other 23 counties have to share the 
other $500,000. But he also said something else. He said that 
we are dealing with witnesses who don't even want to take part 
in the program. Now, if that be the case, then--and I then said 
maybe there are things that we need to do to change that 
program. So I also want to know why it is, if it is accurate, 
that people are not taking advantage of the program. I want to 
know that too. And what it is that we might need to do to 
change it. I know I said a lot there----
    Ms. Jessamy. Yes.
    Mr. Cummings [continuing]. But it is all connected because 
it goes to the very essence of what we are trying to do here. I 
mean, it is like sort of a counter-argument that says well, 
maybe they don't need the money.
    Ms. Jessamy. Yes, I think that there are two issues. And 
first I will talk about our program. Since July 2004 
prosecutors have referred for witness assistance 206 victims 
and witnesses to the program; 111 of these, after prosecutors 
had talked to them about coming into the program because they 
had indicated--we do a little threat assessment with the police 
department--that they felt threatened and intimidated. We 
formally interviewed 111. Out of that 111, 95 individuals did 
not show up for their interviews out of the 206. We interviewed 
111; out of those, only 46 wanted to be relocated.
    So we started off with 206 people. We interviewed 111; 95 
didn't even want to--even after repeatedly trying to get a hold 
of them didn't want to have anything to do--only 46 of them 
eventually agreed to go into witness assistance. So we are 
talking about 46 out of 206. Now, that is not to say that all 
206 of those individuals were actually threatened or 
intimidated, but they did indicate some level of trepidation, 
and they said they felt threatened or intimidated. And they had 
to have exhibited that either to a prosecutor or a police 
officer in order to get referred. So that is the beginning. 
What we ended up with was 46.
    Now, that money that I indicated we have expended was 
expended on those 46 people. Now, I believe that if we had a 
program operated by the U.S. Marshal Service or where we had 
people who had experience in this issue, we would begin to send 
a message to those people in the community that there is real 
witness protection.
    We don't operate a witness protection program. We operate a 
witness relocation program. And as the Lieutenant Governor 
said, not everybody wants to leave their homes. When you own a 
home, you decide that you are not going to give it up. Some of 
these people are deciding the same way I am, that they are not 
going to let these people run them away. They are not going to 
let the criminals take over and be in charge. So they stand 
there and they defy them, unfortunately, like the Dawsons did, 
because they weren't going to be intimidated out of their 
homes. And there are people like that, courageous individuals 
who decide they are not going to be threatened and intimidated, 
and they aren't going to let the criminals control them.
    But we, as a community, must be mindful of all this. And 
then there is a large percentage of people who are defendants 1 
day and victims the next. So you have a lot of spill-over 
there, which is another reason, when it comes to using safe 
houses for certain people, that doesn't work because if the 
criminal element knows where the safe houses are, then you are 
not protecting them to the extent that you should.
    Mr. Cummings. Your testimony was that some 25 percent of 
the cases not involving fatality----
    Ms. Jessamy. That is right. The shooting cases.
    Mr. Cummings. Don't even get to trial?
    Ms. Jessamy. They get to court, a lot of them. They get 
indicted, then they get to court. We can't find the witnesses 
or the witnesses end up coming to court and recanting. So those 
cases are lost. It is like the one where we had the witness--
the witness ended up testifying, but the victim recanted. So 
the jury acquitted. Just like the case in Baltimore County. You 
have the jury there having to weigh the credibility of these 
people, and they are saying different things.
    Mr. Cummings. The thing that I think concerns me 
tremendously, why do you think we haven't, as a society, made 
this kind of issue the significant issue that it is? In other 
words, maybe--just to me this isn't rocket scientist stuff. You 
know, if you don't have the cooperation of the public, if 
people are not cooperating with the police, you can't solve 
crimes. And if you can't solve crimes, then you end up in a 
lawless society. And it would be one thing if we did not have 
evidence of what I just said. We see it every day. But what do 
you think is the problem? Are you following me?
    Ms. Jessamy. Well, I think a lot of it has to do with 
glorifying a gangster lifestyle. I kind of believe that. There 
is a certain lure and sexy depiction of a certain kind of 
lifestyle that seems to now permeate across all areas of our 
society. I just came back from Asheville, NC where the National 
District Attorneys Association was meeting. And these are 
prosecutors from all over the country. They are telling me that 
they have a lot of similar problems.
    Daniel Connelly, who is the prosecutor up in Boston, he and 
I were, you know, we consider ourselves the twin witness 
intimidator crusaders because we are the two most vocal in 
terms of this issue. But everybody--they have now, the National 
District Attorneys Association indicated that this is a 
priority for them because they are seeing it all over the 
country.
    Joe Katzly, who is the prosecutor in Harford County, was 
just telling me on Saturday how big a problem witness 
intimidation threats are in Harford County, MD. And we know the 
drug problem Carroll County is having in terms of heroin 
addiction and all these other things. So Baltimore City is not 
an isolated, standing-alone island when it comes to witness 
intimidation. This is a problem throughout our country. And I 
think the fact that you have a subcommittee such as yours here 
listening to what we have to say sends a message across the 
country that this issue is of national import.
    Mr. Cummings. Last question. Going back to the Federal 
program, the program that the U.S. Marshals run, it is amazing 
they have not lost a single witness in all the years they have 
been around. And I think it has been about 30 years. And how 
does that program differ? You said we have a relocation 
program, and apparently you must feel that folks have faith--
and it seems reasonable that they would have faith--in the 
Federal program. Is it in part that they don't have a lot of 
faith in our program, that it is going to truly protect them? I 
know you talked about people that wouldn't relocate, but, when 
you are talking about somebody's life, somebody possibly dying, 
what is the big difference? Do you follow me?
    Ms. Jessamy. Yes, well, we haven't lost anybody who signed 
up for our relocation one either, but, you know, that is 
neither here nor there. I think what happens is that they can 
change identities. They can, you know, give people new Social 
Security cards. Plus they have the U.S. Marshal Service, they 
take you in their custody, they have the pump guns going, they 
guard you 24 hours a day, 7 days a week. Just the idea and the 
cost of that alone for local law enforcement is prohibited. 
There is no way we could provide 24-hour protection for anybody 
beyond probably 72 hours. It becomes so prohibitive you can't 
do it. So we have a relocation program. We only relocate 
people.
    Now, we do relocate them sometimes across the country. We 
have relocated them across the State, sometimes across town in 
Baltimore. But it depends. But for the most that is what we do. 
And we provide them all kinds of other assistance. Sometimes 
witnesses don't want to be relocated. They do want some other 
kind of assistance, just having somebody to walk with them down 
the hallway from the witness room to the courtroom because 
there are family and friends of defendants sitting in the 
hallway. Just having a law enforcement officer hold that 
person's hand and walk them past them in the hallway into that 
courtroom provides a heightened sense of security for that 
witness. We can do something just that slight and that simple, 
or we can have 24-hour protection, but it is for a very limited 
period of time until we can effectuate the move.
    Mr. Cummings. Just one last thing. Do you see any 
relationship--Chairman Souder and I had a conversation not long 
ago where we were kind of discussing the possible relationship 
between what happened to the judge's husband and mother up 
there in Chicago, and then we look and we see what happened 
down there in Atlanta when the fellow broke away from the 
guards and I think killed 4 people. This whole attack on law 
enforcement and judges and witnesses, I mean, if this virus 
continues to spread, it seems like you--as Mr. Ruppersberger I 
think said, we will get to a point where we are like some 
countries that don't have the sophistication that we have with 
regard to the integrity of our system. I mean, do you see that?
    Ms. Jessamy. Well, I see those as more isolated incidences. 
Hopefully they stay that way. But what I do see within the 
system a lot of times is more retaliation against people who 
are a part of the system in those areas of familiar 
relationships, personal relationship issues, domestic issues. 
That is why when we were looking at the statute that has passed 
but has not yet been signed by the Governor, that we were 
concerned that domestic violence and child abuse are not 
included in those areas for which we can introduce prior 
statements.
    And now our statute also limits the statement to have been 
written or recorded in close proximity. And if you know 
anything about what happens, it is usually the night of the 
event when people make statements to police, and then it is 
when the defendant, weeks or even months later, is ready to go 
to trial or has been arrested and is ready to go to trial that 
he becomes aware of who the witnesses are maybe that the 
threats and the intimidation begins. So it is not usually 
immediate. So people will tell you things immediately. That is 
why the hearsay exception, forfeiture by wrongdoing, is so 
important because those statements, given in close proximity to 
when the crime occurred, if you can use those statements later, 
then the, I guess, the threat and intimidation becomes a non-
issue then because you don't need--why threaten somebody if you 
know that their statements will be able to be used against you.
    Profession Lynn McLain used an example of the forfeiture by 
wrongdoing exception, and I can say I know Chairman Souder had 
asked about the hearsay and the Constitutionality of it. She 
uses the example of killing your parents and then throwing 
yourself on the mercy of the court because you are now an 
orphan. Well, when you threaten and intimidate a witness and it 
is your own actions that have caused that witness not to be 
there, and then you come into court and you claim your 
Constitutional rights are being violated because you can't 
confront them. When you explain it like that to the community, 
everybody can understand what it is you are talking about.
    And I have been talking about this to community groups, and 
when I use those examples, they say yes. It is like a light 
bulb goes off. But that is the same thing--even Justice Scalia, 
he and I don't agree in many ways, but when he isolated this 
forfeiture by wrongdoing exception to say that yes, it is 
Constitutional. It has been around since the 17th century. This 
is a wonderful, equitable principle that we as prosecutors need 
to be able to use.
    So when I call the bill a toothless tiger, that is what it 
meant. But I have been told it has claws, and we are glad of 
the claws.
    Mr. Cummings. Thank you.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Ms. Jessamy, I really like your 
testimony and I want to follow through with a couple things. 
Trying to listen and, again, have a hearing, you find a way to 
make a difference, I think, is important that we can walk away 
from this hearing. And I want to ask you a question about a 
couple things I was thinking about.
    Witness intimidation has become a major issue. Just as we 
specialize in burglary, robbery in our police departments, 
homicide, you know, fraud, those type of things, I am wondering 
whether or not whenever we have a high-profile felony case or 
any felony case whether we could reprioritize and have our 
police departments train with the U.S. Marshals so that every 
single case that you have where you know that there is a 
possibility of witness intimidation, that we have an expert a 
part of that team, that homicide team, that robbery team, that 
is specially trained to focus in this arena. And that is No. 1.
    The second thing, you know, we still don't have the funding 
that we need; we hear the cuts today from the Federal 
Government, but it seems to me the possibility of grants to 
local government about witness intimidation, and you have 
talked about how most witnesses don't want to leave their 
homes, and we should not allow them to. And if a witness who 
did not partake in the crime is going to know that their family 
is in jeopardy or whatever, they are going to protect their 
family and probably themselves too.
    Wondering, we have police departments--I know it is a 
policy in Baltimore City, Baltimore County when I was county 
executive--that we have police officers who want second 
employment. And the possibility we have our light rail 24-hour 
protection now with police officers who are getting paid not 
from the department, but in another arena. The possibility of 
having this 24-hour protection with off-duty police officers 
and trying to develop a program where we can get a Federal 
grant to focus in these arenas, what do you think about those 
kind of ideas?
    Ms. Jessamy. I think those are good ideas. I agree with 
Floyd when he talked about this board and people making 
decisions. They can also, you know, we need to sit down and 
plan some strategies around this whole area. And some things 
are not amenable through criminal justice solutions. They are 
probably all kinds of things that we can do as a community to 
address some of these issues, maybe sitting down with planning 
in certain communities and dealing with certain planning 
issues.
    We have been looking at a project, what we call property-
based crime solutions, which means looking at using whatever 
tool we have in our toolbox--and it may not be a criminal 
justice tool--to address a specific issue. But it would mean 
everybody sitting down at the table talking and coming up with 
how to solve problems. And this could be the centerpiece of 
problem solving around this----
    Mr. Ruppersberger. And I would ask you----
    Ms. Jessamy [continuing]. Particular issue----
    Mr. Ruppersberger [continuing]. If you do get to the table, 
that a lot of what we are talking about is money and 
resources----
    Ms. Jessamy. Yes.
    Mr. Ruppersberger [continuing]. So if we are going to get--
--
    Ms. Jessamy. And it is also coordination too.
    Mr. Ruppersberger. Well, of course, yes, that is important. 
But from a Federal Government perspective, either Federal laws 
or Federal money. And if we are going to appropriate Federal 
moneys, we need to have a specific program that we know will be 
well-managed and will get results----
    Ms. Jessamy. Yes.
    Mr. Ruppersberger [continuing]. And that is why I just 
brought up those two ideas. And I think that is important. 
Floyd Pond----
    Ms. Jessamy. Very good ideas.
    Mr. Ruppersberger. Floyd Pond, I look back and count the 
years, when you and I were prosecutors, that was 30 years ago 
in 1975, and you are still in this business, so I assume you 
still have a lot of expertise and I thank you for your service 
throughout these years.
    I am a little concerned about the issue of HIDTA--HIDTA, a 
program that coordinates Federal, State, and local--and, as you 
know, the decision has been made to move HIDTA into the Justice 
Department. I have great concerns about that because I think it 
dilutes the program. Could you give me your opinion on why or 
whether you think this move with respect to HIDTA is going to 
have an impact on drug law enforcement, including the issue 
here today, witness intimidation, and all the other issues we 
talked about as it relates to drugs?
    Mr. Pond. It certainly is going to have an impact. We have 
28 standing task forces that serve this region. At the request 
really of the chairman, we pulled our agency administrators and 
asked them what the impact would be if HIDTA left, and they 
almost uniformly said that they would have to pull out. We 
provide them resources, and everybody is aware of that--money 
to purchase drugs, vehicles, overtime, computers, they are co-
located so they work with each other.
    But the backbone of HIDTA is this coordination issue. That 
is why we are so efficient; that is why we do have performance 
management results. Because there is no duplication in our 
investigation. We have de-confliction not only in terms of our 
cases, so everybody knows what everybody else is working so 
they don't work the same target. But we also have de-
confliction in terms of our vets where officer safety--officers 
are protected through a GPS system of making buys or deals 
against each other in the same neighborhoods.
    So the backbone of HIDTA is the intelligence sharing and 
bringing people together. Pat Jessamy is on the board of 
HIDTA----
    Mr. Ruppersberger. So why would moving to Justice make a 
difference?
    Mr. Pond. Because that 800-pound gorilla would eat it up. 
You know, I don't want to talk about OCIDEF because I want to 
talk positively----
    Mr. Ruppersberger. Right.
    Mr. Pond [continuing]. But, you know, this program is 
efficient, is effective. I think Director Walters has been 
disingenuous with the committee in terms of talking about part 
because as is well clear, we have implemented performance 
management and we can speak to what happens with our cases and 
where they are going and what the results are.
    But the key to HIDTA is bringing people together. We have 
Federal, State, and local--it is not federally dominated. Pat 
Jessamy and Leonard Hamm all have a voice, and it is one 
agency, one voice. It is not dominated by the Federal agencies. 
And that is why it is successful. Because when we started 
HIDTA, FBI and DEA wanted to run HIDTA, and it was with local 
leadership--Mike Gambril was a chief in Baltimore County, who 
you know. And we had local chiefs that stood up and said we are 
all in this together. And that is the beauty of the HIDTA 
program.
    Mr. Ruppersberger. Based on your expertise, a long period, 
how many years have you been in this business now?
    Mr. Pond. Over 30.
    Mr. Ruppersberger. 30 years--35 really.
    Mr. Pond. Yes. You are counting. I am not.
    Mr. Ruppersberger. 35--1975, 1985, 1995, 2005. OK. But 
based on your expertise, what impact do you think it is going 
to have on drug enforcement throughout this jurisdiction, but 
throughout the country?
    Mr. Pond. Well, when you look at drug enforcement at the 
Federal level, the FBI has just about dropped out. They do 
still have a few drug squads, but their reorganization is 
constant and it is redirected. They still have their National 
Safe Streets programs, so you do get focus from the FBI in 
terms of violent gangs. DEA will always have their budget, but 
DEA----
    Mr. Ruppersberger. Getting cut.
    Mr. Pond [continuing]. Is getting cut, and DEA is famous 
for taking money from other people before they spend their own 
dollars.
    Mr. Ruppersberger. Smart.
    Mr. Pond. When you look at ATF, ATF is a marginal player 
with HIDTA. They are a good player. You know, we talked about 
Federal prosecutions of firearms, so this ATF office in 
Baltimore I know heard Mayor O'Malley's comments, but they do 
use Project Disarm aggressively. That is not whether the U.S. 
attorney chooses that.
    The ultimate impact is that we are going to put more and 
more pressure on local law enforcement and State law 
enforcement, drug law enforcement to fill this void, because 
there is no way that these Federal agencies--and they will tell 
you themselves that they can't maintain these task forces as 
they are currently situated with these types of resources.
    Mr. Ruppersberger. Lieutenant Bowers, we want to have you 
say something. You are on the frontline and you were in 
homicide. You have heard the testimony today. From the 
frontline, what would you like--from a Federal perspective, 
what would you like us to do? Bottom line, I think talking to 
frontline members like yourself from law enforcement, one of 
the biggest issues is the deterrent.
    Mr. Bowers. Right.
    Mr. Ruppersberger. And the Federal deterrent works where it 
seems State and local doesn't. What would you like us to do to 
take back to Washington to see how we can effectuate this 
issue?
    Mr. Bowers. We definitely need a deterrent. When you look 
at either the victims or the witnesses to crime, if you give 
them a choice of separation from their family or their loved 
ones or relocating and not having any contact with them, or on 
the other hand not testifying, right now they are choosing to 
not testify. And that cleans it all off with that. We need to 
make it a deterrent on those that either intimidate or conspire 
to intimidate individuals that it is not worth it.
    Mr. Ruppersberger. Well, it is not like finding the bad 
guys; how would you recommend that we provide protection? What 
mechanism would you use to make sure that those witnesses will 
be--that is the backbone of our county, to stand up as a 
community against the bad guys.
    Mr. Bowers. Exactly. And as you mentioned earlier, the 
sources, to use off-duty or police officers that are funded 
through to supply protection, at least until the trial is over, 
the hearsay exception would be great. If you can get over the 
hearsay, then their testimony--you take the emphasis right out 
of requiring them to stand up and be confronted, that their 
testimony will come in one way or the other. The emphasis is 
off of eliminating that source. That source is already there.
    Mr. Ruppersberger. Did you have anything else?
    Ms. Jessamy. Yes, in reference to HIDTA, you know, it is 
one of those things that prosecutors, especially in the city, 
find to be outstanding. I have four prosecutors right now that 
are funded with HIDTA, two of whom we are losing funding for 
and don't know what is going to happen to the other two, one of 
whom is prosecuting gun cases over in the Federal system. So 
HIDTA also provides analysts for us, and analysts really give 
you information to allow you to get better results. And I don't 
know what we would do without the kind of technical assistance 
that we get along with HIDTA's participation of what is 
happening on the streets every single day by planning the 
strategy and deploying the bodies to impact crime in Baltimore 
City.
    Mr. Ruppersberger. Is the National College of District 
Attorneys concerned about this issue?
    Ms. Jessamy. The National District Attorneys Association 
passed a resolution this weekend asking that letters be 
disseminated, and I think I have written you already relative 
to HIDTA. I have written every Congressman, but, yes, you will 
be getting letters from DA's all across the country.
    Mr. Ruppersberger. I think that is important that they be 
heard, and that is major issue with respect to HIDTA.
    Ms. Jessamy. It is.
    Mr. Ruppersberger. OK, thank you. Thank you, Mr. Chairman.
    Mr. Souder. Thank you very much. We are continuing to 
pursue that. Obviously, this having a local vote and 
participation is extremely important. I think the 
administration--and I wanted to clarify this in the first panel 
too--has not cut the drug budget. What they have done is 
shifted it to where there is more national and less local. I 
have been one who believes that the State and local can't just 
always look at the Federal, and quite frankly, you all are 
going to have to put up more money too. I don't agree with the 
mayor's statement that Homeland Security is just a national 
issue. It is everybody's issue. But as long as all of us are 
saying we are not going to spend more money, the question is 
how do we cover all this stuff? How are we going to even have a 
legal system function if people are afraid to testify? How are 
we going to get a hold of crime in this country if we cut all 
the local and the Federal interdiction efforts?
    I don't want to be like Colombia. Just a few years ago in 
Colombia, one-third of the mayor's slots were not filled 
because anybody who ran for mayor was getting assassinated. 
Finally, after a couple of intense years of intervention, they 
have all the mayor slots filled. But at one point they had a 
third of their judges killed. I mean, we can't have this system 
happen in the United States. So we have to figure out how we 
are going to do this at the local level and what commitments 
are going to be made there, at the State level, and at the 
Federal level. The last thing we need to be doing right now is 
gutting our problems that are working like the HIDTA.
    So I thank you all for your testimony today. It has been 
very enlightening on the witness protection. And with that, we 
will go to the third panel. I know it has been a long morning--
afternoon now.
    [Recess.]
    Mr. Souder. Subcommittee will come back to order.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Thank you very much for your 
patience today. The first witness is Judge Kenneth Johnson, 
former associate judge of the Baltimore City Circuit Court. 
Thank you for coming.

 STATEMENTS OF JUDGE KENNETH JOHNSON, FORMER ASSOCIATE JUDGE, 
BALTIMORE CITY CIRCUIT COURT; DAVID WRIGHT, PRESIDENT, CHARLES 
 VILLAGE COMMUNITY BENEFITS DISTRICT; AND RICKY P., RESIDENT, 
                         WEST BALTIMORE

                  STATEMENT OF KENNETH JOHNSON

    Judge Johnson. Good afternoon, Mr. Chairman, and the 
Honorable Cummings, and the Honorable Ruppersberger. Thank you 
very much for inviting me here today to testify before your 
committee at this important hearing. And it is indeed a 
pleasure, a privilege, and an honor for me to be allowed to 
share my views here today. In your letter to me dated April 27, 
2005, you stated that the hearing was entitled ``How Can the 
Federal Government Support Local and State Initiative to 
Protect Citizens and Communities Against Drug-Related Violence 
and Witness Intimidation?''
    On Sunday, June 21, 1992, I published an article in the 
Baltimore Sun, opinion section entitled ``The War on Drugs Is 
Mostly Eyewash.'' A copy of that article is attached here, my 
written statement, as exhibit No. 1. Please allow me to read a 
brief portion from that article. It reads,

    If society postpones the war on drugs much longer, drugs 
will destroy our institutions. The level of corruption will 
have so thoroughly infested and corrupted all levels of society 
as to prevent any effective eradication by law enforcement.
    Already we have begun to notice the bribery and murder of 
potential witnesses and police officers to prevent criminals 
from being tried and convicted. We also know that the profits 
from the illegal drug trade contribute substantially to the 
economy. In the not too distant future, we will see the bribery 
and murder of prosecutors, jurors, and judges in order to 
protect drug profits.
    When this day comes, the law of the streets will govern and 
our government will be too weak to regain effective control. 
The public will cry out, demanding that something be done; it 
will be more than willing to abandon constitutional liberties 
in an effort to confront and control the drug trade. Given the 
sorry state of our present political leadership, there is 
little hope that our future political leaders will resist the 
sacrifice of civil liberties to the desperation fostered by the 
pain and ravages of the drug trade. The time to confront and 
control the drug trade is now.

    That was 13 years ago, sir. As a result of my publishing of 
the said article and my campaign to make our Nation aware of 
what will confront us if we did not address the illegal drug 
trade at that time, my life was threatened on numerous 
occasions and my family was endangered. The defendant was 
arrested, pled guilty, and convicted. He was given an extremely 
lenient sentence. Although at the time of his arrest he had 
with him a silencer and my photograph. An ``X'' had been placed 
on my photograph with the words ``Kill this one.''
    On May 11, 1992, I asked a Baltimore City Grand Jury to 
investigate the illegal drug trade and determine why importers, 
wholesalers, drug dealers were not being pursued and 
prosecuted. The Grand Jury concluded that there was a major 
problem with law enforcement of the laws relating to the 
illegal drug trade. A copy of the Grand Jury Report is attached 
as exhibit 2 to my statement.
    Attorney Tim Baker, the U.S. attorney for the District of 
Maryland from 1978 to 1981, published an article in the 
Baltimore Sun on Monday, July 26--my birthday incidentally--
1993, entitled, ``A Rogue Judge and a Runaway Jury.'' I was the 
referenced ``Rogue Judge,'' and the Grand Jury that I asked to 
investigate the illegal drug trade was the ``Runaway.'' Mr. 
Baker had little experience as a lawyer and apparently did not 
understand the ravages and devastations caused by the illegal 
drug trade, or perhaps simply chose to ignore it. A copy of Mr. 
Baker's subject article is attached as exhibit No. 3 to my 
statement. Some public officials of Baltimore City also 
criticized the Grand Jury and me for our efforts with reference 
to the illegal drug trade. And the Maryland State Prosecutor 
found little merit in the Grand Jury's Report.
    Sadly, Mr. Chairman, the predictions that I made in that 
article have largely come true. It is my belief that if the 
Federal, State, and local officials had taken the Grand Jury's 
Report and my statements against the illegal drug trade 
seriously, we would not be in this desperate position that we 
are in today.
    The problem of violence and witness intimidation brought on 
by the illegal drug trade are national in scope. It will take a 
national coordinated and funded effort to confront and solve 
these drug problems. The so-called war on drugs was never 
fought and is not now spoken of. When is the last time any of 
us have heard two people in authority talk about the war on 
drugs?
    Its numerous failings, including the filling of our prisons 
and the ruining of countless young lives by arrest and 
conviction, are still with us. It has been a major factor in 
the breakdown of family life. Study after study, including 
studies by our Federal Government, has shown that the rate of 
drug use among Whites are significantly higher than drug use 
among Blacks. Yet, our prison population suggests that the rate 
of drug use among Whites and Blacks is just the opposite. Does 
anyone seriously contend that racism is not a factor here? 
There was and is a racial component to our drug enforcement 
policies. That is, for White drug addicts the criminal justice 
system views their addiction as a medical problem, but views 
the Black drug addiction as a criminal problem. Not only is 
this policy view unfair and unjust, it has and continues to 
hinder effective law enforcement. I believe that the Federal 
Government must support State and local levels of government 
and make enforcement fair, just, and consistent.
    The rule of law and our institutions have been weakened by 
the illegal drug trade. Our criminal justice system is becoming 
dysfunctional, largely because of the increase in drug and 
drug-related cases. The enormous flow of cash from the illegal 
drug trade has been undetected, unaccounted for, and 
unregulated and has spiraled corruption that hinders effective 
law enforcement and has increased violence. It has contributed 
to the unraveling of the social contract between us, the 
devaluing of life, and the disrespect for the rule of law, all 
remarkably similar to the effects of prohibition.
    Mr. Chairman, let us not be justifiably accused by the 
generations that follow us of doing nothing in the face of this 
national drug crisis, an internal crisis that threatens our 
democratic form of government. Terrorism, the outside threat to 
us, is no more dangerous to us than the illegal drug threat, 
the inside threat to us. We would do well to remember that the 
Roman Empire was not felled by outside forces; it was destroyed 
from within.
    I am deeply concerned that our efforts to address the 
problems created by the illegal drug trade that we do not 
abandon our Constitutional rights in the process. The right of 
an accused person to confront his accuser is an integral part 
of the due process of law. In denying the accused that right, 
we run the risk of convicting an innocent person. And the loss 
of the criminal's Constitutionally protected right will result 
in the loss of the Constitutional right for everyone.
    We can and must create a society where the desire to use 
illegal drugs will decrease. We can set a course in that 
direction by reducing poverty, increasing education and job 
opportunities, and by treating drug addiction as more of a 
medical problem than a criminal problem. We must also limit the 
supply of illegal drugs by convicting and jailing the importer 
and wholesale drug dealers just as we have the street-level 
drug dealer. This has never been attempted on a Federal, State, 
or local level despite the much-touted ``War on Drugs.'' Only 
the Federal Government can make such an effort.
    The Federal Government must guarantee and demonstrate that 
all witnesses--Federal, State, and local--will be protected 
from any harm from any source. It must also guarantee that our 
criminal justice system is fair and just. When it does so, 
witnesses will know it, and they will come forward voluntarily.
    Mr. Chairman, I urge your committee to sound the alarm on 
the illegal drug trade. It is a cancer on our society. A Band-
Aid on a cancer has never been known to cure it. A new, bold, 
and sustained effort by the Federal Government is urgently 
needed. You and your committee can begin that effort.
    I strongly recommend that a national commission be created 
to look into the illegal drug trade and its effect on our 
society. The Kefauver Commission, relating to organized crime 
in the 1950's, and the Kerner Commission, relating to the 
causes of social unrest and violence in the 1960's, could be 
used as a model for such a commission. Some of the laws passed 
by Congress based on the recommendation of the Kefauver and 
Kerner Commissions were and are valuable tools in fighting 
crime and poverty. I speak of the Kefauver Commission and the 
reco law and of the Kerner Commission--for example, the Civil 
Rights Act--the Housing Act of 1968 and related laws.
    Thank you very much for allowing me to share my views with 
you. I have attached the exhibits, which includes the Grand 
Jury Report and several articles I have published, not directly 
related to this, but relating to my views on society and a just 
and fair society. Thank you, Mr. Chairman.
    [The prepared statement of Judge Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.037
    
    [GRAPHIC] [TIFF OMITTED] T3040.038
    
    [GRAPHIC] [TIFF OMITTED] T3040.039
    
    [GRAPHIC] [TIFF OMITTED] T3040.040
    
    [GRAPHIC] [TIFF OMITTED] T3040.041
    
    [GRAPHIC] [TIFF OMITTED] T3040.042
    
    [GRAPHIC] [TIFF OMITTED] T3040.043
    
    [GRAPHIC] [TIFF OMITTED] T3040.044
    
    [GRAPHIC] [TIFF OMITTED] T3040.045
    
    [GRAPHIC] [TIFF OMITTED] T3040.046
    
    [GRAPHIC] [TIFF OMITTED] T3040.047
    
    Mr. Souder. Thank you very much for your testimony. Our 
next witness is David Wright, president of the Charles Village 
Community Benefits District.

                   STATEMENT OF DAVID WRIGHT

    Mr. Wright. Mr. Chairman, Ranking Member Cummings, 
Congressman Ruppersberger, distinguished members of the 
committee, I am honored to appear before you today.
    Witness intimidation has cost my neighborhood dearly. 
Earlier this year my friend, neighbor, and colleague awoke to 
flames outside her bedroom window. She was the victim of an 
attempted firebombing. She was unharmed, but since that time, 
she has been in protective custody. Now she has decided that 
she can never be safe in Baltimore City. She has lived in the 
neighborhood for 33 years.
    Baltimore and other cities across this country cannot 
afford to lose good citizens. Baltimore cannot afford to have 
good families terrorized by malicious gangs. My neighborhood 
cannot afford to watch as our children become the next 
generation of thugs. We cannot sit idly as hopelessness, drug 
addiction, and crime turn neighbors against our justice system.
    I am here today to urge you to invest in a solution to this 
plague. I implore you to invest in the tools necessary to carry 
out justice when witness intimidation arises. I implore you to 
invest in protecting brave citizens. I implore you to invest in 
a criminal justice system that works against miscreants and 
works for the good citizens that I need and have as neighbors. 
I must also ask you to invest in the tools necessary to prevent 
this depravity and to restore hope to neighborhoods desperate 
to succeed. With help we can be healthy, peaceful, neighborly, 
and proud.
    My neighbor worked hard to improve our neighborhood. She 
swept the streets and alleys tirelessly; she talked with her 
neighbors; she helped to organize community festivals; she 
talked to the police, and she told the police what she saw and 
heard; she urged them to act against a wave of drug dealers, 
against a wave of delinquent adolescents, against the 
neighborhood being invaded. For this, her home was attacked.
    In the days and hours after the tragedy struck, the system 
worked. When Molotov cocktails crashed against her house, the 
police were quick to respond. My neighbor was whisked away and 
secured. Federal agencies assisted, and the resources were 
there. For this I am thankful. But we must not doubt that the 
response system must be fortified.
    Safety and security for witnesses must never be denied due 
to a lack of resources. Witnesses must always receive the swift 
and enduring assistance my neighbor has received. No witness 
should ever receive anything less. This is the cost we must 
bear to ensure justice.
    We must also bear the cost of reassuring and stabilizing 
neighborhoods. On the streets of Harwood, our neighborhood, we 
have seen more police, but they are already starting to 
dwindle. Though Baltimore suffers from a tremendous strain on 
its law enforcement, events like this must bring forth a large, 
sustained deployment of police. We must have a police presence 
that makes clear to those remaining to conspire that this will 
not be tolerated. Those good citizens facing the fear and 
distress of acts of witness intimidation must see and take 
comfort in the presence of protectors. Therefore, I ask you to 
fund a strong police presence in areas that are facing systemic 
witness intimidation. We must demonstrate our unequivocal 
commitment to combat this behavior. The police must be on the 
streets. Their presence must be felt by every worrying mother 
and every conniving drug dealer.
    In conjunction with this demonstration of the power of law 
enforcement, there must be the presence of hope. We must make 
clear to our children our commitment to their future. The thugs 
and criminals of tomorrow are on the corner now. They are 
aimless and unsupervised. They are vandalizing property to pass 
the time. Soon they will be approached by drug dealers to serve 
as lookouts. These young citizens must receive supervised, 
structured guidance and have role models to combat those 
temptations that would lead them astray.
    Already the foundations exist. The community is concerned 
and longs to bring activities to these kids. But the local 
recreation center is destitute, the local after-school programs 
overwhelmed. Kids show up but there are too few staff to manage 
them. There are no supplies, and the facility is battered and 
deteriorating. There is no excuse for this. Baltimore City is 
desperately reaching out for public and private partnerships to 
improve these facilities, but we need more help. The rec center 
needs the resources to carry out its mission, the resources to 
care and promote hope.
    Harwood worries about its young people more than anything 
else. Funding for a good education, after-school programs, and 
other opportunities will eliminate the supply of violent 
criminals of the future. Each person in Harwood knows this, and 
despite very limited means, good things are underway. But if we 
fund inventive, effective programs, you will not have to fund 
protective services for witnesses.
    The fuel for so much of this crime and misanthropic 
behavior is the drug trade. The violent criminals and drug 
dealers must be arrested, but their clients must receive 
treatment. Baltimore and other cities are working desperately 
to provide treatment, but the resources are scarce. Effective 
programs should be embraced and reinforced in areas where the 
drug trade is creating a new justice system based on 
intimidation. I urge you to continue to support entities like 
the Washington-Baltimore High Intensity Drug Trafficking Area 
and Baltimore Substance Abuse Systems, Inc. Demand these groups 
pioneer strong, effective programs. They are making progress.
    I am asking, therefore, that as you consider the plague of 
witness intimidation that you consider the curable causes that 
cannot be divorced from it. Any allocation of resources to law 
enforcement should be matched dollar for dollar with the 
community-building, youth-building, drug-treating efforts the 
community needs.
    The solutions to witness intimidation are clear: protect 
every witness that needs protection, provide police and 
encourage community policing strategies, create opportunities 
for youth development, demand tough sentences and high bails, 
facilitate a responsive and transparent justice system, ensure 
every addict has access to treatment.
    I have already lost a very dear neighbor; I cannot bear to 
lose the entire neighborhood. Thank you.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.048
    
    [GRAPHIC] [TIFF OMITTED] T3040.049
    
    [GRAPHIC] [TIFF OMITTED] T3040.050
    
    Mr. Souder. Thank you. Our clean-up witness today is Ricky 
P., a resident of West Baltimore. Thank you for coming. Thank 
you for being patient.

                     STATEMENT OF RICKY P.

    Mr. P. Thank you, chairman. Thank you, Congressman Cummings 
and Congressman Ruppersberger. My name is Ricky P. I live in 
West Baltimore. Congressman Cumming knows how to reach me. But 
with all due respect, I am not making my address public 
knowledge to this statement. I am afraid to do that.
    I make my living as a barber, and people talk to me while I 
cut their hair. What I want to say to you, our elected 
representatives, is this: all of the people I know and the 
people I meet on my job are just as afraid as I am. They are 
afraid and they are angry. People are afraid because most all 
of them know someone who has been shot or killed, often 
sometime in their own families--their fathers, their mothers, 
even their children.
    People are afraid because, with all due respect, the drug 
dealers and their guns, not our elected officials and police, 
are the true law in our city. The drug dealers and their thugs 
are the forces that will make their will stick by threats and 
murder if we go against them.
    Our people are afraid because they know that if we decide 
to do the right thing and go against the thugs and their guns, 
we should be saving our money to take care of our families 
after we are dead and gone. So that is the first thing I need 
to tell you, my elected representatives.
    And the second thing is this: people are angry because they 
know--and with all due respect, you know this is as well--that 
the politicians and the police and the people with money have 
found ways to make themselves safe while leaving the rest of us 
to take care of ourselves. A lot of you have moved to suburbs. 
Some of you live in buildings with guards. The garages where 
you park your cars are safer than the streets of our community.
    This is the truth, honorable representatives. And another 
truth is that we pay our taxes that pay for the guards and the 
metal detectors where the powerful people like you work and 
live. We don't want to take the protection away from you, but 
the people in my community have asked you why don't our tax 
dollars pay for the same protection and security where we live 
and work?
    This is the question that people in my community are 
asking. And the answer to that question is what makes us angry. 
The answer in the minds of the people of my community is that 
we must pay to protect the rich and powerful while we ourselves 
are left to be threatened and killed, especially if we 
cooperate with the police.
    We are being asked to risk ourselves and our families in 
ways that no one with power and money would accept for himself 
and the people he loves. People believe this because it is the 
truth, a truth that we know from the experience of our lives.
    Honorable representatives, I respect you because you are 
trying to do something to protect my family and my community. 
You are trying to convince the Congress to take just a small 
part of the tax dollars that we are now using to protect our 
people, and spend it on protecting us. You always say that 
these tax dollars are our money. Well, we would like to use 
some of that money of ours to protect our families, just as we 
are trying to protect powerful people here in the United States 
and people in foreign countries.
    If you say that you are determined to uphold the law and 
that you want and need our help, that is good. We will support 
that. The fact that we are afraid does not mean that we don't 
have the courage to do the right thing. However, we are not 
going to give up our lives for nothing.
    You and I know that we have only 3 possible choices about 
protecting witnesses in court from the drug powers in our 
community. First, you can spend our tax dollars to put more 
police officers on our streets so that people in my community 
won't be confronting the drug dealers face to face and getting 
themselves killed. Second, you can spend our tax dollars to 
allow our city and State to give those of us with the courage 
to stand up in court and tell about the crimes that we see 
every day the same kind of level of witness protection that the 
Federal courts and Marshals give to their Federal witnesses 
that they need.
    These 2 choices are the ones that the people of this 
community want you to make. We pray that you will be doing the 
right thing. But please don't pretend to protect us when you 
are not willing to do what is required to be effective. If you 
want to provide us with more police protection in our 
community, truly protect us when you need us to testify about 
the crimes that we see.
    Your only other choice, the unwise choice, is this: your 
only other choice is to give up. Your only other choice is to 
accept the truth of our community and our streets that the drug 
gangs are going to be the true law in this country. I must warn 
you, though, of one final truth. If the Congress continues to 
make this unwise choice, someday and soon the drug gangs are to 
be the true law in your communities as well.
    This is the truth as I see it. This is my testimony. Thank 
you very much.
    [The prepared statement of Mr. P. follows:]

    [GRAPHIC] [TIFF OMITTED] T3040.051
    
    [GRAPHIC] [TIFF OMITTED] T3040.052
    
    Mr. Souder. I have been hearing all day about an incredibly 
frustrating problem that is certainly spreading. Do you believe 
you could have--let me ask Ricky this question, also the judge 
and David--do you believe that we could actually provide enough 
police to provide protection to everybody?
    Mr. P. No, I don't believe you can provide that type of 
protection. It would be very costly. However, not so much--if 
we saw more police presence, we would be a lot more willing to 
step up to the plate instead of maybe one or two that always 
steps up to the plate. So I believe if you had more police 
presence in the neighborhood, a lot less would be going on than 
it is now.
    Mr. Wright. Yes, I believe that you can put enough police 
on the streets of Baltimore to make a substantial dent in this 
problem, especially once you have reached the threshold that a 
neighborhood like Harwood has reached. Putting police on the 
streets, out of cruisers--the cruiser culture really has ruined 
Baltimore City, that police are not actually out there getting 
to know the community, getting to know the nuances of who is 
new, who is on what corners, and really in Baltimore who is 
brothers with whom.
    But I think if you saturate an area for a short time, then 
you can actually see the levels of crime go down substantially 
and stay low if you get the police in there and visible and 
actually interacting with the community in a positive way, 
which is another problem we have here.
    Judge Johnson. Your Honor, the short answer is no, we 
cannot do it that way. In the short run it would be the Band-
Aid on the cancer, and we would be back to where we are. That 
would not be the approach that I would recommend.
    Mr. Souder. And we are trying to be in Colombia again in a 
few weeks and we are trying to put a continued full-court press 
down there. We functionally don't control our southwest border, 
which is where much of it comes in.
    Be in El Salvador because one of the problems we have is El 
Salvadorian gangs--I mean we get illegal immigrants into the 
United States that get convicted of a crime; we sent them back 
to El Salvador. I remember last time I was in El Salvador there 
were roughly--I think it is a minimum of 25,000 to 30,000 El 
Salvadorians who went to America, weren't criminals, learned 
the drug and crime in the United States. Then we deported them, 
and now there are 30,000 criminals in El Salvador and their 
police force is like 8,000 people. And now they have spread 
those into our major cities.
    It is exasperating to try to figure out how to address 
this. Clearly, if you pulse the police in a neighborhood, you 
will get a short-term reduction. If that neighborhood gets 
involved, then, and feels like there are officers in the 
neighborhood and they get emboldened and do community policing, 
that helps, then tends to shift to other neighborhoods unless 
you do it simultaneously.
    Clearly, we can't have all the witnesses intimidated out; 
you can't have people afraid to go out on the streets. But it 
is very hard to figure out how to do this kind of combination. 
Like you say, if we give up it just gets worse. Every time we 
have backed off it gets worse. But what you are describing in 
your neighborhood and your neighborhood, it is just--I mean, it 
is intolerable. And how can we do that? It is in the suburbs, 
but the level is different in the suburbs. A lot of the 
suburban kids will come in and get the narcotics in the more 
urban neighborhoods and then it spreads there.
    I thought the judge made an interesting point about how we 
treat suburban kids versus urban kids and often on racial 
grounds. One of the challenges here is that because of the way 
the dealing is done and because of witness intimidation, there 
does tend to be more--a percentage more of the criminal element 
in where you have the hardened networks. But there is no 
question that ability to hire--if you are more affluent you get 
to hire an attorney. We have looked at some statistics, agreed 
to do hearings. We have had some hearings on this. But it is 
just hard not to get discouraged and just to keep plugging with 
this when we hear it. Judge, you look like you wanted to add 
something.
    Judge Johnson. Well, no, sir, except I agree with you. It 
is frustrating and that is why I recommend that you recommend 
that we pawn a commission. And the reason for a commission is 
because we can get scholars, retired Congressman, and retired 
Senators, and retired police officers, and would have 
professors from the academic world, and they can come up with 
some solution. And that commission recommendation--those 
recommendations coming from there have a much higher percentage 
of being passed by the Congress than coming from other sources. 
That has been my experience in my 42 years at the bar. But that 
would happen.
    Then, we could address the problem. In my view, sir, the 
reason why America rightly responded like it did to September 
11th, and I am a veteran. I served 4 years in the JAG corps and 
3 of which in Southeast Asia during the Vietnam War. I was in 
the Military Justice Division for the Pacific Command, and I 
wanted to go fight real bad too after September 11th. We don't 
have that type of thing with this inside threat, this drug 
threat, to make us all real, real mad. The people who are 
getting angry is like Mr. Ricky here because he is there where 
he sees everything, just like the effects of a September 11th 
creeping on the rest of it, but he has it. And that is not 
going to come any other way in my view unless we create a 
commission and centralize, get the whole Nation focused on it, 
get the Congress to then pass the laws, and we go after it. We 
can never give up. I will never give up.
    When I was threatened, I didn't run. There are causes in 
life, riveted in oneself that you have to stand for. And I am 
willing to stand. And I know others who are willing to stand.
    Mr. Souder. Well, I would say at a minimum if you find a 
guy with a loaded gun with a picture that said I am going to 
eliminate this many, that there ought to be a severe penalty. I 
mean, that is a good place to start. It is almost like we have 
to make some examples on the witness intimidation because a lot 
of--what is really hard to sort is what is bluffing and what is 
real. But we need to take down some of the bluffers. And 
clearly, and what we have heard today, is there are enough real 
cases that we can focus then in on the real cases. If I get 
some of the people who are taking advantage--it is like if 
somebody kills 3 people, they can threaten 300 more because 
those people wonder whether they are going to be like the 3 who 
got killed. And we have to somehow separate that.
    But it has been fascinating today to listen to all the 
different types of challenges with it and the level of the 
witness intimidation, what that does in a community. Mr. 
Cummings.
    Mr. Cummings. Yes, and I thank you all too for very 
outstanding testimony. Ricky, tell me this, you talked about 
the fear that people have and you talked about us as a 
government protecting people. And you have heard all the 
testimony today. What kind of specific things do you think 
would be most effective in doing that?
    Mr. P. Well, No. 1 would be more money allocated to the 
local governments. Like David said here, I would like to see 
more feet police. You know, I have been in business now for 
about 25 years, and I remember when the police used to know 
most of the business owners, used to come in and say hello and 
had a relationship with them. Now, most of the police in my 
community I don't even know. It is like sometimes I can't tell 
the difference between the police and the drug dealers. You 
know, sometimes I can't tell the difference. The police have 
just as bad of an attitude as the drug dealers.
    And, you know, I listen to a lot of different people and 
see a lot of different things, and, you know, over the past 3 
days I have heard of three shootings. And the three shootings 
come from one person helping the other person up. And so since 
he helped the other person up to take him to the hospital, he 
got shot. You know, just things like that I hear every day in 
my community, you know. And the police presence, I might see 
the police locking some young fellow up for throwing trash in a 
dispenser and then taking him off to central booking and 
locking him up when they are taking 2 and 3 hours at a time 
taking him away from the community where there are real issues 
going on in our community. I see a lot of that going on.
    Mr. Cummings. I would just like all of you to just talk 
about the ``stop snitching'' DVD. I don't know how many of you 
all are familiar with that. And if you are not, you don't have 
to. But it is interesting that when the papers reported on now 
the tee-shirts with ``stop snitching,'' one of the things that 
a lot of the young people said was that well, it is just a fad. 
It is not a big deal. You know, this is what is in style now 
and we want to go to the outer limits, but we are not really 
trying to send a message. Do you think those kinds of things do 
in fact have an impact on the public?
    Mr. P. Well, to some degree that is true, especially with 
our youth. But, see, the drug deals in our community are the 
per se role models for a lot of our people. Because a lot of 
our community, people who have become successful have moved on 
and not come back to the community and give back to the 
community. So all the children have to see as they grow up are 
the drug dealers with the big cars and the jewelry and the 
clothes, and they are fascinated by that. Do you understand?
    And it is easier--you know, I have taken on several youth 
in my salon and tried to teach them and go to school and the 
requirements, they do their homework and study when they are in 
there, but if I am giving them $50 a week or $40 a week and 
they can stand on the corner and make $1,000 a day, I cannot 
combat that. How can I change their mind to say well, this is 
wrong? This is short-lived. You know, most of society now, they 
want instant gratification. So they don't want to hear about 
the long-term; they want to know what they can have right now. 
And as opposed to me hiring your son and giving him $40 or $50 
a week to sweep in the barbershop and he can stand on the 
corner, like I said, and make $500 to $1,500, you know, I lose 
almost every time.
    Mr. Cummings. Mr. Wright.
    Mr. Wright. I haven't seen the ``stop snitching'' video per 
se, but I will agree that we need more people like Ricky on the 
streets, role models, because we are now two generations into a 
drug culture that is taking young Black males off the streets 
of Baltimore and eliminating a whole generation of role models. 
That worries me enormously, and I think that is what needs to 
be disrupted, that we have to somehow get role models back into 
the neighborhoods, back on the streets, give them places to go 
to bring the kids before they fall prey to the drug dealers. 
That is one way you disrupt it.
    Because with Edna's case there are now seven men indicted. 
Nobody won in that case. Edna has now left the State. Seven 
more young men are off the streets. I wouldn't be surprised if 
some of them have children that will no longer have fathers. 
And we are just seeing the cycle repeat itself. I think what 
you need to do is, you know, get good, tough men in, good 
working men to say, you know, shape up. You know, you can't 
live to be just 25 and then go to jail. That is not a proper 
way to be a citizen in this country.
    Judge Johnson. Mr. Cummings, I think that we all have to 
admit that our society has become more tolerant of the drug 
culture. And what Mr. Ricky P. has said is correct, and I agree 
with what he said. And the drug dealer can make a lot more 
money--and he is the role model--than one could make at 
McDonald's, short-term gain. One day the whole country, if we 
don't stop this, will become more tolerant of drugs. It is OK, 
so if anybody snitches period, not only the underclass, but the 
middle and upper-class will get the same fate. We have to stop 
it now, stop the tolerance for it.
    I have not seen it, but that is not unusual because I don't 
watch television, didn't grow up with it, never found any use 
for it, but we have to not tolerate that. We have to create a 
society where there is no tolerance for that.
    Mr. Cummings. Judge, let me ask you this--and this is my 
last question. I mean, I know you talked about back in 1992 
about what you saw then and what you saw coming. And how long 
were you on the bench?
    Judge Johnson. 19\1/2\ plus years.
    Mr. Cummings. Did you see this problem evolving, this 
witness intimidation problem evolving when you were on the 
bench?
    Judge Johnson. Oh, yes, but it is in attachment 1 in the 
article I wrote.
    Mr. Cummings. You saw it?
    Judge Johnson. I saw it. One of the reasons I wrote that 
article was because I saw often--I have tried over 100 murder 
cases as a trial judge. The witness would get on the witness 
stand and he recants. Now why was he recanting? He was 
recanting because the defendant's lawyer, the drug dealer's 
lawyer who was being tried for murder, had sent the cousins or 
brothers or friends or homeboys so to speak out to visit the 
witness. And he gets the witness's address at the time of the 
arraignment. The first police report contains no witness' name, 
but at the time of the arraignment, then he is entitled to the 
name and address of all witnesses, the lawyer is. So the lawyer 
tells the relatives who the witnesses are. And they go to him 
and say we hear that you are snitching on us. And he said oh, 
no, no. I never told the police anything. Well, come on down to 
my lawyer's office and tell him that. So he goes down to the 
lawyer's office; the lawyer takes an affidavit saying the 
police was lying on him; he never made the statement or what 
have you. A year later he comes to trial, the State take him 
over the police statement, he says yes, yes, all that happened. 
And then the lawyer confronts him with this affidavit.
    And that is what I meant by those forced affidavits being 
filed to get witnesses off. The lawyer has just as much blood 
on his hand as the trigger man. And when I wrote the article, 
they went after me like I had stolen something, the cartel and 
the drug lawyers because they knew I knew what I was talking 
about. I got this information firsthand on numerous occasions 
from the bench as well as from police lieutenants and 
detectives and homicide detectives and what have you. And I saw 
it and I called it. So it was there.
    But let me say this to you, Mr. Cummings: the price I paid 
for this was OK because I never saw another false affidavit 
since that time. So it is all right. I stopped it. And you can 
stop it too. Take a stand.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. First, I want to thank the panel 
because you are the frontline. And the battle we are having in 
our communities is just as serious as the battle in Iraq. And 
the first thing I do want to say as a sidebar, instead of 
paying for polls as sometimes we do as elected officials, I 
find if you go to a barbershop or a hair salon, you will find 
out more what is going on in the community. So I like what you 
are saying.
    Try and again find and look at solutions. The first thing, 
you all alluded, I think all three of you--we can talk and the 
previous panels about the resources we need, the money that we 
need to put into different programs, but one of the things we 
didn't talk about but you raised the issue was dealing with 
children, getting children before they get to the level where 
we have lost them. And that takes resources and buddies 
programs, pal programs, getting children and teenagers off the 
street.
    When I was in Baltimore County we had a very active pal 
program, and one of the things we knew to get those tough kids 
is you had to hook them to get them in because a lot of the 
street kids wouldn't go into these programs. So we developed a 
karate program. And as soon as you offer karate, a lot of the 
bad kids would come in, and then you have them and you hooked 
them.
    But if we don't deal with end of the spectrum, the young 
children, getting to them, we are always going to have 
problems. Now I think one thing that hasn't been talked about 
here today, and I would like to just develop your opinion a 
little bit, is about community policing. Community policing is 
very, very important. And, Ricky P., do you have a community 
association where you live?
    Mr. P. Well, yes, I have a strong community association 
where I live at. However, when you are dealing with--see you 
are talking about community policing when most of the young 
children belong to the community. So we are talking about a 
community policing where the drug dealers are their kids, you 
understand? So they don't want to tell on their kids or they 
are not going to snitch on their kids or they are not going to 
form a commission to tell on their kids.
    Mr. Ruppersberger. Well, here is my point: community 
policing, a part of what community policing is about for 
someone to go into the community and developing really a non-
confrontational relationship with people in the community that 
understands and really gets intelligence about what kids are 
having problems, what kids' parents are involved, whatever. And 
by getting that information they can direct a problem or solve 
a problem before it gets started.
    The same thing in schools. You put police officers in 
schools in a non-confrontational way, they can usually deal 
with the fight after school or somebody might get hurt, 
stabbed, shot, whatever, by dealing and having those 
relationships.
    And I think, you know, I know, getting to your community, 
do you have an active community association where people come 
and they meet and talk about community issues?
    Mr. P. Yes, but understand this: now, just take for 
instance last summer. I live across the street from a school, 
so a lot of kids tend to go up on the lot all the time in the 
summertime and hang out and everything. So I went up there one 
time to try to talk to the kids and ask them, you know, they 
just built a recreation center. Why don't you come to the 
recreation center and talk about some of your needs? In the 
course of that I got my window shot out by a BB-gun, they 
burned a fire by my house. You know, every time you seem like 
you want to stand up, don't nobody want to stand up beside 
you----
    Mr. Ruppersberger. Well----
    Mr. P. In my community I have a lot of elderly people. And 
a lot of elderly people are going to go in their doors and stay 
in their doors. They are not going to come out.
    Mr. Ruppersberger. Let me ask you something else, another 
program that I thought was effective that I have been involved 
with is the Citizens on Patrol. Now, government can't do it 
all. Now, our country is a great country because we as citizens 
stood up and took care of problems. But we need coordination 
and we need help, especially in your area, what you are talking 
about.
    And what Citizens on Patrol basically did was get the group 
of citizens together, which gave them strength and power. And 
we were able to get communication where we would have walkie-
talkies. We didn't want the citizens to stop a crime. And 
basically it got to the point 24/7 we had citizens who would 
take a certain night that we would have three or four in a car 
in different hotspot areas in the neighborhoods. And then the 
word got out, and believe it or not, we did a study, and when 
the word got out that they had citizens on patrol in 
communities, the crime started to drop. But the reason it 
worked is because the whole community stood up.
    Now I would like to hear, Ricky P. and David Wright, your 
opinion. Do you have any type of Citizens on Patrol, and if 
not, do you think we could develop something in some of these 
communities to try to deal with the problem? Because we want to 
walk away from here today with solutions, and it is important 
that we do that.
    Mr. P. See, now, I have seen like two blocks or three 
blocks away from mine another community having Citizens on 
Patrol, and let me tell you how that works. They move from 
those two-block radius or three-block radius and go down to 
another two or three blocks away and still--you know, I mean, I 
don't want to get off your question, but I watch all day long 
where I see 100 cars come by my community, coming out of my 
block, and 98 of them, sir, are county people. See, and when 
you look at this and you see this all day, you got to know that 
your police know this. And if your police----
    Mr. Ruppersberger. There is the point. And you know who the 
drug dealers are.
    Mr. P. Right.
    Mr. Ruppersberger. You are in the community.
    Mr. P. Right.
    Mr. Ruppersberger. But if you have community policing, it 
is a different relationship. It is knowing the community, 
knowing who the people--so that community police officer knows 
what you know and can use their authority and their expertise 
to get the narcs or whatever they need to do. But, you know, 
Citizens on Patrol does work if it is coordinated. But you 
can't have one community two blocks away and another one not. 
That is what community policing is about. And I think it is 
something we need to focus on, and I think it might work, in 
your community especially. And I would like to hear, David 
Wright, your position on that too.
    Mr. Wright. Citizens on Patrol has been difficult. In the 
hardest areas of Baltimore, in the worst areas, we found that 
we can't get people to sign up. It is too dangerous because of 
what Ricky said, that as soon as you exert a positive 
influence, you are singled out and attacked. But what has 
worked are things like the crime watch numbers, which has led 
people to sign up to have an anonymous notification system so 
that when they call 911 to report things, they are not 
automatically handing over their information to the police. 
Because we found that what happens is that if somebody calls 
the police through the regular 911 system, the police show up. 
They are looking around to see what happened with the incident. 
They go to the person who reported it. That person then gets 
associated with the police, they get singled out, their car 
will be vandalized, they will feel threatened.
    So that in neighborhoods where theft and burglary are the 
primary crimes, Citizens on Patrol is wonderful because there 
you are looking for people who are demonstrating unusual 
activity. In the tougher neighborhoods of Baltimore, the 
interplay of family and friends and the harshness of the 
situation, the harshness of the reality kind of precludes 
Citizens on Patrol. But things like crime watch does really 
have a much better impact.
    Let me say as well that I think we have heard today a 
number of times that a lot of citizens don't want to move after 
they have been intimidated. And that really what that speaks to 
is dedicating resources to having police, because if those 
witnesses are going to stay in that neighborhood, they need to 
feel like there is somebody around and that clearly to some 
extent the resources are there for moving citizens.
    And let me say as well that it is not only the financial 
burden of moving and the loss of the community, but for Edna it 
has been absolutely a horror and a day-in and day-out anxiety 
as her world was disrupted for 3 months. And the psychological 
anxiety was enormous. It is facing that kind of trauma that 
really rules out moving out of your community. You know, a lot 
of folks stay in Baltimore for generations and their lives and 
their grandparents are here and they won't move. So the least 
we can do, I think, is to put police on the streets out of 
their cruisers, have them visit the barbershop.
    Mr. Ruppersberger. Well, it is a sad state of affairs when 
you can't have Citizens on Patrol, when citizens can't come 
together because of fear and intimidation. So law enforcement 
has to do the job. But I really think we have to refocus on 
that community policing to an extent.
    Mr. Wright. Absolutely.
    Mr. Ruppersberger. We need a balance.
    Mr. P. But I think law enforcement need to take back that 
community first.
    Mr. Ruppersberger. Well, I don't disagree.
    Mr. P. Once they take back the community, then we can 
institute----
    Mr. Ruppersberger. But they are not going to take back the 
community if they don't get at least source information and 
resources. Not that somebody has to come out front all the 
time, but just to get information. And if you are telling me 
you know the neighborhood----
    Mr. P. Yes.
    Mr. Ruppersberger [continuing]. And police aren't talking 
to you----
    Mr. P. Yes.
    Mr. Ruppersberger [continuing]. In a confidential and 
informant way, that means they are not doing their job.
    Mr. P. Yes.
    Mr. Ruppersberger. So hopefully we will learn from this 
hearing today. Thank you.
    Judge Johnson. Did you want my response to that?
    Mr. Ruppersberger. Yes, sure. You are the judge.
    Judge Johnson. I was. I am back to being an old country boy 
again, sir.
    Mr. Ruppersberger. If I believe that, you will tell me 
another one.
    Judge Johnson. I agree with what both of my panelists have 
said here, and let me just add, Mr. Congressman, the waters and 
the fires have gathered too close around us for that community 
policing to be working anymore. The cancer is here, and that 
Band-Aid is the community policing. It is too late.
    Mr. Ruppersberger. I disagree with that. I don't believe it 
is ever too late. We can't give up. But you are right; we have 
to have the big fist first to come forward to give people the 
confidence to come forward.
    Mr. Souder. Well, these are massive questions that--and one 
of the things that--well, history may not repeat itself but 
often rhymes, and we need to not repeat mistakes of the past. 
And the one thing I learned early on when I was a staffer was 
working with the Bloods and the Crypts and gangs in Los 
Angeles, and we had this bright idea that we were going to do 
programs for kids who were in gangs to try to get them out of 
the gangs. Guess what? The number of kids in gangs increased 
because there weren't any programs for the kids who weren't in 
gangs. So in order to get in the programs you had to join a 
gang. So we watched the Bloods and the Crypts double because of 
that program. And so you have to figure out logical ways of 
building.
    And what I have come to believe is that you have to have a 
clear, swift, certain punishment for violating the law. Then we 
need to look at reward systems and how you do other things in 
the community. But you can never address the fact that you can 
pay $40 in your barbershop and they can get $1,000 on the 
street corner.
    Mr. P. No.
    Mr. Souder. Yet we are continuing to reinvent this stupid 
policy internationally. Because down in Colombia the President 
wants to give people all this kind of stuff if they will stop 
growing coca. No, they need to stop growing coca; then we will 
talk.
    The same thing right now in Afghanistan where we are 
talking about heroin. We don't go into your street and say oh, 
we will build you a new road, we will do all this kind of stuff 
if you just stop, you know, doing this on the street. We say 
no, you are going to stop doing it on the street. And we need 
to say the same thing to people growing heroin and the people 
growing coca, that we are not going to put up with this. We are 
not going to buy them because we can't. We can never meet the 
amount of money they can make growing heroin poppy and coca. 
Yet we are repeating this in our international budget.
    At the local level, some of these problems that you have 
addressed is we need mixed housing. And I have gotten in an 
area of my hometown of Ft. Wayne where we were fifth in crack 
for a while. It was just overrun. And we tried to do mixed 
housing. But this stuff is hard. We just need to keep at it.
    Because as we worked with HUD and I got then Secretary 
Martinez to come in and we launched this thing to try to put 
middle-class housing with the Black Ministerial Alliance in Ft. 
Wayne, guess what? A house that cost $140,000 to build in the 
suburbs, I got--not me. The Democratic mayor, myself, others 
went to the homebuilders, said you have to get involved here. 
They built houses that were then priced at $90,000 in the urban 
center to try to get mixed housing. Because like you say, there 
aren't any role models. How do we get people back in? So to try 
to do mixed housing.
    Well, guess what? Now people are complaining because 
evaluation of those houses, which cost $140,000, same house in 
the suburbs but sold for $90,000 are now valued at $65,000 
because they can't buy them. So they are claiming that their 
bank loan doesn't equal the equity of the house. This is hard. 
Because here we had the builders donating, we had the HUD 
Secretary in, we had a model thing, and now the equity isn't 
there because ultimately the crime rates are still there, the 
school rates are still there. It takes a long time to re-habit, 
but we have to have multiple things.
    But one thing is for sure, and that is what we got out of 
this hearing today, is if you are a witness in a crime, you 
can't be shot. And the police have to have a method to protect 
the witnesses and where we have people willing to be brave 
enough to come forth, we have an obligation to try to protect 
those people. And through that, then focus on those 
neighborhoods. And where there is a will, we ought to find a 
way to defend those people and reclaim. And if it moved next 
door or a couple blocks, it moves next door. But where people 
are committed, we have an obligation as a society to do that. 
And I thank Mr. Cummings and Mr. Ruppersberger for being here 
and for Mr. Cummings' lead in this. Thank you each for your 
testimony and thank everybody for the patience this long 
hearing. Thank you very much. The subcommittee stands 
adjourned.
    [Whereupon, at 2:22 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3040.053
    
    [GRAPHIC] [TIFF OMITTED] T3040.054
    
    [GRAPHIC] [TIFF OMITTED] T3040.055
    
    [GRAPHIC] [TIFF OMITTED] T3040.056
    
    [GRAPHIC] [TIFF OMITTED] T3040.057
    
    [GRAPHIC] [TIFF OMITTED] T3040.058
    
                                 <all>

</pre></body></html>
